<html>
<title> - SYRIA: U.S. POLICY OPTIONS</title>
<body><pre>[Senate Hearing 112-495]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-495
 
                       SYRIA: U.S. POLICY OPTIONS 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-417 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Alterman, Dr. Jon B., Zbigniew Brzezinski chair in Global 
  Security and Geostrategy; director, Middle East Program, Center 
  for Strategic and International Studies, Washington, DC........     9
    Prepared statement...........................................    12
Cofman Wittes, Dr. Tamara, director, Saban Center for Middle East 
  Policy, The Brookings Institution, Washington, DC..............    15
    Prepared statement...........................................    17
Jouejati, Dr. Murhaf, professor, Near East South Asia Center for 
  Strategic Studies, National Defense University, Washington, DC.     4
    Prepared statement...........................................     7
Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1
Lugar, Hon. Richard G., U.S. Senator From Indiana................     3

                                 (iii)

  


                       SYRIA: U.S. POLICY OPTIONS

                              ----------                              


                        THURSDAY, APRIL 19, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Udall, Lugar, 
Corker, and Barrasso.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you all very much for being here. I appreciate it.
    The stakes for American values and interests in the 
unfolding events, drama, tragedy, whatever you want to call it, 
with respect to Syria are really important to us. At least 
10,000 civilians have died. Hundreds of thousands more have 
either been displaced or at grave risk of harm. And the 
humanitarian crisis that has engulfed Syria's neighbors 
obviously has implications in the region, and we know that 
refugees and displaced populations can be the spark for large-
scale violence.
    What happens in Syria will have a direct impact on our 
regional stability and on the security of our friends and 
allies throughout the Middle East. We all understand that a 
full-fledged civil war there would have devastating 
consequences for Israel, Lebanon, Turkey, and Jordan.
    And increasingly I am concerned about apparent al-Qaeda 
involvement in Syria and the disposition of the country's 
biological, chemical, and advanced conventional weapons.
    Certainly Bashar al-Assad has lost all governing legitimacy 
except what he achieves at the barrel of a gun or a tank, and 
it seems clear that if he succeeds in holding onto the status 
quo, it would not just be a moral outrage but a severe blow to 
the democratic aspirations of the Middle East. It would also 
reinforce the interests of both nations and groups hostile to 
transparency, to the rule of law broadly shared by the 
population of a country or to peaceful transition.
    Based on two strategic prerogatives--one, avoiding chaos 
while, two, ensuring that the fundamental aspirations of the 
Syrian people are met--it is clear that the best outcome would, 
in fact, be a managed transition. Assad and the current regime 
under any circumstances, it seems to me--it is very difficult 
to understand how they could be doing anything except living on 
borrowed time. How much time is obviously a serious question. 
The longer the end game, the messier the aftermath. While our 
ultimate goal is an open and inclusive political process that 
paves the way for a new government, it is difficult to see an 
outcome acceptable to the people of Syria that would involve 
President Assad remaining in power for a prolonged period of 
time.
    The question now then is, What can be done to send the 
message clearly and effectively? While it is true that 
America's influence all by ourselves in Syria is limited in 
these circumstances, we are obviously not without options, 
particularly in partnership with the broader international 
community. Last weekend's U.N. Security Council resolution is a 
first step that puts the Syrian Government on notice. The time 
for false promises is over, and the time to end the violence is 
now.
    We need to work with the Russians and the Chinese to help 
them to understand that while we appreciate the positive 
involvement in approving a monitoring mission for Syria, their 
responsibilities do not end with a monitoring mission that is 
being put in place. Progress will require both steps from all 
sides.
    First, with the creation of the Friends of Syria group, 
there is now a multilateral mechanism for supporting the Syrian 
National Council (SNC) and other political groups with 
humanitarian aid and nonlethal supplies, including 
communications equipment. I understand that Secretary Clinton 
is meeting today with a subset of the Friends of Syria in 
Paris. I urge our colleagues to support these efforts.
    Second, there are still serious questions about the various 
opposition groups, including the Syrian National Council and 
the Free Syrian Army (FSA). We need to continue to work with 
these and other groups to encourage them to coalesce into a 
viable and inclusive political force. It may be that they 
cannot or do not unify as an organization, but they certainly 
need to achieve a unity of purpose. They urgently need to 
present to Syria and the world a coherent vision of a tolerant 
and pluralistic post-Assad society.
    And third, we need to consider how best to support the Free 
Syrian Army. The administration has committed to provide 
nonlethal assistance. In addition, we should work with the Free 
Syrian Army's leadership to promote professionalism and better 
integration with the political opposition.
    And finally, we should weigh the risks and benefits of 
establishing safe zones near Syria's border areas. Safe zones 
entail military action and would require significant support 
from regional powers and, therefore, obviously, require a more 
significant vetting and strategic work-through. I believe the 
unity of the council and coordination of the Free Syrian Army 
must develop significantly before one could create those zones. 
But our interests and values demand that we consider how they 
could be constructed and what this might mean for Syria's 
neighbors.
    We also need to clarify what Syria's neighbors, both 
immediate and near neighbors, need to do here. It seems to me 
that the Arab League needs to continue to lead. The GCC has 
provided leadership and they must continue to also. And we 
obviously need to understand what is achievable by all of us 
together.
    Right now, we need patient, clear-eyed diplomacy, combining 
elements of political and economic pressure to influence the 
calculations in Damascus. But given the potential for further 
sectarian violence and regional destabilization, we need to 
also think through carefully what comes next, and we need to 
prepare for the worst even as we hope for the best. That means 
no option can or should be taken off the table. The Pentagon, 
appropriately, is drawing up contingency plans for the 
transition, and obviously one needs plans to guarantee the 
safeguard of both chemical and biological weapons.
    To reach agreement on realistic options going forward, we 
need to continue the consultation process that is taking place. 
I might add even the act of developing the contingency plans I 
think helps to send the right message to all parties involved 
that we are serious about the prospects of transition.
    So there is a lot to discuss here this morning, and to help 
us explore these issues, we want to welcome our distinguished 
witnesses. We have Dr. Tamara Cofman Wittes. She is director of 
the Saban Center for Middle East Policy at The Brookings 
Institution and until recently was the Deputy Assistant 
Secretary of State for Near Eastern Affairs. Dr. Murhaf 
Jouejati is a Syrian-born expert in Middle East affairs and 
professor of Middle East studies at the National Defense 
University's Near East South Asia Center for Strategic Studies. 
And Dr. Jon Alterman holds the Zbigniew Brzezinski Chair in 
Global Security and Geostrategy and is director of the Middle 
East Program at the Center for Strategic and International 
Studies. We thank all of you for taking the time to come today 
and bringing your expertise to the committee.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I join you, Mr. Chairman, in welcoming 
our distinguished witnesses, and we appreciate their testimony 
as we consider policy options toward Syria.
    Since our last hearing a month and a half ago, the world 
has witnessed the continued violent suppression of protestors 
and dissidents by the regime of Bashar Assad and clashes 
between government forces and the armed opposition, as the 
people of Syria seek to create their own Arab Spring.
    Though the situation in Syria remains fluid, there have 
been important diplomatic developments. A cease-fire has been 
agreed to, and this week United Nations cease-fire monitors 
have arrived in Damascus. Nonetheless, violence continues, 
underscoring the difficulty of the circumstances in Syria.
    It remains to be seen whether this cease-fire is durable 
and how it contributes to the goal of a genuine transition in 
Syria. Assad has defaulted on his word in the past. He will be 
judged on his actions and not his promises.
    In the first instance, the Syrian authorities and 
opposition forces must guarantee the safety of the initial U.N. 
advance team of observers--and the supervision mission that 
will follow--so that they may carry out their responsibilities. 
Their ability to report on actions on the ground represents a 
critical step in limiting the bloodshed in Syria.
    A sustainable cease-fire, of course, is only the beginning. 
The international community has called on Assad to withdraw his 
forces from population centers, to facilitate the provision of 
humanitarian assistance to the Syrian people, and to implement 
the other elements of the Annan peace plan.
    The situation in Syria presents many challenges for the 
United States. Even as we are hopeful that the violence will 
cease and that a political process to address the legitimate 
aspirations of the Syrian people will be put in place, the 
outcome of events in Syria will have profound effects on its 
neighbors--including our close ally Israel, and on ethnic 
conflict and the broader stability of the region.
    We must also remain mindful of the security concerns 
presented by events in Syria. Terrorist groups may try to take 
advantage of Syria's political instability. Sectarian conflict 
could expand to draw in Syria's neighbors. And I remain deeply 
concerned about Syria's substantial stockpiles of chemical and 
conventional weapons. As it develops United States policy 
toward Syria, our Government must also focus its policy, 
intelligence, and counterproliferation efforts on confronting 
and containing these threats.
    But as I have said before, we should not overestimate our 
ability to influence events inside the country. If the United 
States or other Western nations insert themselves too deeply 
into this conflict, it could backfire and give credence to the 
Syrian regime's claim that outside influences are the source of 
all their troubles. While the administration should not take 
any options off the table, we should remain skeptical about 
committing military forces to this conflict, for both 
constitutional and practical reasons.
    As Congress works with the administration to develop and 
implement options in this complex situation, I will be 
interested to hear from our panel what courses of action they 
would recommend that would advance American national security 
interests, are most likely to produce an outcome favorable to 
the people of Syria, and would contribute to peace and 
stability in the region.
    I look forward to your testimony.
    And I thank you, Mr. Chairman.
    The Chairman. Thanks so much. Thank you, Senator Lugar.
    Dr. Jouejati, if you would go first, Dr. Alterman, Dr. 
Wittes. Thank you.

 STATEMENT OF DR. MURHAF JOUEJATI, PROFESSOR, NEAR EAST SOUTH 
ASIA CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE UNIVERSITY, 
                         WASHINGTON, DC

    Dr. Jouejati. Thank you very much, Mr. Chairman. I am truly 
very honored to be here. Thank you for inviting me.
    Almost exactly 1 year ago, teenagers that sprayed graffiti 
on the walls of their school in Daraa were arrested. And the 
following day their fathers tried to get them out from the 
security center, but they were told by Atif Najib, the cousin 
of Bashar al-Assad and the man in charge of security there, 
that they should go home, forget about their children, and if 
they are not men enough to make children, then to bring him 
their wives so he can make children for them. This is the kind 
of relationship that exists today between the state and society 
in Syria.
    Since that time, until the present time, as you said, Mr. 
Chairman, there are over 10,000 people killed, 1.5 million 
internal refugees, 130,000 refugees outside of Syria. Since the 
Kofi Annan plan, 1,500 have been killed, and since the so-
called cease-fire on April 12, there have been hundreds of 
people killed and there continues to be shelling by tanks and 
artillery of civilian neighborhoods in Rastan, in Homs, in 
Hama, in Deir-ez-Zor, and in Daraa.
    I am going to only speak to the parameters of the questions 
that were posed to me here.
    With regard to the opposition, the opposition is 
fragmented, but it is not as fragmented as the international 
media has made it out to be. All opposition groups are united 
in calling for an end to the Assad regime and for the 
establishment of a free, pluralistic, and democratic Syria.
    Some groups that the media have counted in the opposition 
include Rifaat Assad's group. Yet, Rifaat Assad has absolutely 
no credibility inside Syria. Nor does the ``National Salvation 
Front'' of Mr. Abdel Halim Khaddam.
    Those that do count, of course, are the Syrian National 
Council, which is the largest umbrella organization of the 
opposition, and the Free Syrian Army. And I am happy to say 
that recently the two have been coordinating efforts. There has 
been the establishment in the Syrian National Council of a 
military bureau in order to effect this. The Free Syrian Army 
has recognized that the Syrian National Council as the 
political umbrella, and the Syrian National Council has pledged 
to assist the Free Syrian Army.
    There are divisions between the Syrian National Council and 
the National Coordinating Committees (NCC). That is very true. 
But although the purpose of both is the same, namely the 
downfall of the Assad regime and the establishment of a 
democratic Syria, it is in methodology that they differ. The 
NCC does not want any international intervention. The SNC wants 
at least an international intervention for humanitarian relief.
    The differentiation between internal and external 
opposition, I think, is also exaggerated. The Syrian National 
Council meets outside of Syria, and that is because its members 
are unable to meet inside Syria, lest they be made heads 
shorter. The Syrian National Council is a coalition of 
political forces, and many of its component groups operate on 
the ground inside Syria. This includes the Local Coordinating 
Committees (LCC) which has, in addition to its representation 
in the general assembly of the Syrian National Council, a seat 
on the Presidential Council of the Syrian National Council.
    Here again there are some differences: the LCCs have a 
difficult time understanding that international intervention 
requires a lot of diplomacy. Given the divisions in the 
international community, this is an uphill battle.
    However, the longer this crisis takes place, the more 
splintering there will be in the opposition, and, potentially, 
the more radicalization. We now hear, for example, of a ``Free 
Syrian National Army.'' This is not good. Again, the longer the 
crisis in Syria, the more there is going to be the emergence of 
groups and the more radicalized people become. This would 
invite all sorts of unwanted elements, unwanted either by the 
Western democratic world or the Syrian people themselves.
    The Assad regime is cohesive, but it is not as cohesive as 
it is made out to be. There are fissures that are beginning to 
appear. Until today, there have been 25 generals that have 
defected from the Syrian Armed Forces. There are other 
defections in the Baath Party, in the ministerial cabinet, in 
the government bureaucracy. And we do have now business groups 
that are supportive of the opposition, and they are beginning 
to coalesce under the umbrella of the Syrian National Council. 
If there continues to be regime cohesion, it is because of the 
confidence of the regime that the international community is 
divided and will do nothing to force its collapse.
    Sanctions are hurting. Syria has lost around a third of its 
annual revenue from sanctions against the oil exports. The 
Syrian pound has lost value. Inflation is increasing rapidly. 
Unemployment is increasing exponentially. The reserves of the 
Central Bank of Syria are down by half.
    But in and of themselves, sanctions will not bring down the 
regime, especially that Iran is assisting Syria financially and 
otherwise. Trade deals with Iraq, the exportation of Venezuelan 
oil to Syria, these things are propping up the Assad regime and 
are diluting the effect of sanctions.
    Sanctions are hurting the people--are beginning to hurt 
seriously the people, but not the Assad family. And Mrs. Assad 
has much imagination in continuing to buy Louboutin shoes. So 
this does not hurt the Assads.
    Opportunities for diplomacy. I truly identify with the 
statement that Secretary of State Clinton said yesterday that 
the Kofi Annan plan is the last opportunity. It is the last 
opportunity because it follows a number of diplomatic 
initiatives to stop the killing, including Turkish and Arab 
attempts, all of which, as you know, failed.
    The Annan plan is the last opportunity although it suffers 
many flaws. It calls for a political dialogue without 
mentioning that Assad must step down, although the Annan plan 
is rooted in the Arab initiative. The Annan plan does not 
provide a timetable and Assad cannot go on killing indefinitely 
without consequences. The Annan plan does not define failure 
although many would contend that it has already failed. There 
has been no significant pull-back of heavy armor from towns. 
The regime does not allow international media still. It does 
not allow humanitarian relief, and it is continuing to shoot at 
demonstrators. Case in point: Yesterday in the town of Arbine, 
civilian demonstrators in front of U.N. monitors were shot by 
security forces.
    Nonetheless, the Annan plan is all that we have got, but 
the Annan mission does need an enforcement capability or else 
it is sure to fail. And that should be linked to a threat of 
force. The threat of force has a great psychological effect. 
Let me remind you that there is one United States Senator who 
recently said in the media that air power needs to be used, and 
the same day, four Syrian generals defected. The same day, the 
Syrian pound to the dollar jumped from 50 to 103. So the threat 
of force might work.
    Now, perhaps this is not the best option. Perhaps Assad, 
even with the threat of force, might continue to dig in his 
heels, but I think allowing the Annan plan to fail without any 
consequences for the Assad regime would be far worse.
    Thank you.
    [The prepared statement of Dr. Jouejati follows:]

              Prepared Statement of Murhaf Jouejati, Ph.D.

    The crisis in Syria is part and parcel of the Arab Spring. It is a 
national uprising against 48 years of authoritarian, single-party rule, 
and 41 years of family rule.
    Thus far, more than 12,000 have died; more than 1.5 million have 
been internally displaced; there are 130,000 Syrian refugees in other 
countries; and tens of thousands have been detained and others forcibly 
disappeared. Entire villages have been reduced to rubble, with entire 
populations fleeing.
    Since the emergence of the joint U.N.-Arab League mission, headed 
by envoy Kofi Annan, Syrian human rights organizations and the Syrian 
opposition to the Assad regime have documented more than 1,500 deaths. 
The number of refugees increased markedly and massacres of those trying 
to flee government shelling and bombardment continue.
    Since the beginning of the so called ``cease-fire,'' on April 12 at 
6 a.m. Damascus time, more than 1,000 civilians have died. Although the 
Assad regime pulled back its tanks and heavy armor from some areas, it 
repositioned them in others. In some cases, tanks were moved 
temporarily to neighboring villages, only to return hours later. 
Eyewitnesses have provided evidence of regime security forces removing 
their military uniforms only to don civilian clothing before pursuing 
their missions of death.
    Bombardment of civilian neighborhoods in Idlib, Homs, Hama, Aleppo, 
and other areas has continued in the meantime.
    In brief, while it may appear that the Assad regime reduced the 
level of violence in some areas, it is a fact that this reduction 
lasted 2 days only, and, given the Assad regime's track record over the 
13-month uprising, there is no reason to believe that regime violence 
against the Syrian people will end any time soon.
    Moreover, the Assad regime has been selective in its implementation 
of the six points in Kofi Annan's plan: it has not released any of the 
detainees (on the contrary, it has increased the number of arrest 
campaigns sweeping residential areas, including, but not limited to, 
Damascus and Aleppo); nor allowed any more journalists than it already 
had (from countries friendly to the Assad regime)--28 in total (hardly 
a number appropriate for the Annan Plan's requirement to allow the 
international media unfettered access). Furthermore, the Assad regime 
continues to deal with unarmed civilian demonstrators with snipers and 
gunfire (case in point: security forces shot and killed student 
demonstrators in Aleppo, among others, last Sunday).
    As of this writing, the Assad regime is posing a variety of 
conditions with regard to the U.N. monitors, their nationality, and 
their movement inside Syria.
                         the syrian opposition
    The Syrian National Council, the largest umbrella organization, was 
established in October 2011 as a result of the national uprising. It is 
the political arm of the Syrian revolution and is mandated by the 
Syrian street with articulating its political demands. The SNC has 
received its legitimacy from the street.
    As is the case with most opposition movements, the Syrian 
opposition is not monolithic. Other opposition groups have emerged, and 
there are differences in views among them. Still, the international 
media has generally exaggerated the Syrian opposition's woes: First, 
what the media calls ``the fragmentation'' of the Syrian opposition is 
problematic: Rifaat Assad's group, for example, should not count as 
opposition, as Rifaat al-Assad has a highly violent and corrupt past in 
Syria, leaving him with no credibility among most Syrians. Nor should 
Abdel Halim Khaddam's ``National Salvation Front,'' or any of the 
myriad two- or three-person groups calling themselves opposition 
groups, as they are former Assad regime cronies who, for the most part, 
are used by the regime in its attempts to put on a reformist face.
    Foremost among the credible opposition movements is the ``National 
Coordinating Committees'' (NCC). Although the SNC and the NCC are 
united in their vision for a free and democratic Syria after the 
collapse of the Assad regime, the two differ on method: whereas the SNC 
is of the view that the international community must intervene to 
provide humanitarian relief, and that the international community 
should assist the Free Syrian Army (FSA) in defending peaceful civilian 
demonstrators against regime brutality, the NCC objects to any kind of 
international intervention and to the militarization of the revolution. 
A third point of contention has to do with dialogue with the Assad 
regime: while the SNC is of the view that there can only be a dialogue 
with Assad regime figures who do not have blood on their hands, this 
dialogue can only take place in the context of the trial of Assad and 
other regime elements who have blood on their hands.
    Another important group is the Free Syrian Army (headed by Col. 
Riad al-Asaad) which did not arise in a vacuum but as a result of 
soldiers who preferred to defect rather than fire at fellow citizen, as 
per the orders of the Assad regime.
    The relationship between the SNC and the FSA has been formalized in 
an agreement by which the SNC provides assistance to the FSA in its 
function of protecting unarmed civilian demonstrators, while the FSA 
recognizes the SNC as the political arm of the revolution. The ``Local 
Coordination Committees'' (LCC) are part and parcel of the SNC and the 
national leadership of that group is included in the SNC's Presidential 
Council. However, the LCC, in its capacity as the leader of the civil 
resistance movement in Syria, has difficulty with the slow pace of 
international assistance.
    Second, the international media have also overemphasized the 
differences between the ``internal'' and the ``external'' components of 
the Syrian opposition movement. In that regard, it is natural for SNC 
leaders to meet outside Syria. If they were to meet inside Syria, they 
would be made a head shorter. Still, what is generally called the 
external opposition, the SNC, is thoroughly present on the ground in 
Syria through groups including the LCC, the Damascus Declaration, the 
Muslim Brotherhood, and others. Moreover, a large number of SNC General 
Assembly members are inside Syria but their names cannot be divulged 
for security reasons.
                      cohesion of the assad regime
    Although the Assad family has seemingly maintained its cohesion, 
fissures in the Assad regime's supporters are beginning to appear: an 
increasing number of major business groups (some in Dubai, some in 
Europe, some in Saudi Arabia, and still others in Syria) are jumping 
ship. The SNC is in the process of bringing these business groups under 
its umbrella. In addition, 25 Generals have thus far defected from the 
armed forces, in addition to dozens of ranking military officers who 
defect daily across Syria. Other defections have taken place within the 
ruling Baath Party, the ministerial cabinet, and the government 
bureaucracy. The process of defections--which will lead to the 
unraveling of the regime--can be accelerated if the international 
community delegitimizes the Assad regime and, simultaneously, 
recognizes the SNC as the sole, legitimate representative of the Syrian 
people.
                effectiveness of sanctions against syria
    U.S. and other bilateral sanctions against Syria have had a biting 
effect on the Syrian economy. Sanctions against Syria's oil industry in 
particular deny the economy around one-third of Syria's total annual 
income. Sanctions against Syria's Central Bank have also had a 
crippling effect on business. These measures have caused the Syrian 
Pound to depreciate, inflation to rise, and unemployment to increase 
exponentially. These measures have led many business people to jump 
ship; they have also delayed salary payments to middle-class public 
servants, thereby increasing their level of fear.
    However, sanctions alone will not bring the regime down. Assad and 
his immediate entourage do not feel the pinch. Iran, Iraq, and, to a 
lesser degree, Venezuela, have come to the rescue of the Assad regime 
with financial assistance, trade deals, and oil supplies.
                      opportunities for diplomacy
    Given the existential threat looming over the Assad regime, 
bilateral U.S.-Syrian and multilateral EU-Syrian diplomacy are 
exercises in futility. Even Arab diplomacy has failed to convince Assad 
to stop the carnage. Assad has shown time and again that he will use 
any and all diplomatic initiatives to buy himself and his regime time--
in the hope that his security forces would crush the national uprising 
before his regime collapses.
    That the use of diplomacy is an exercise in futility with the Assad 
regime holds true with regard to Mr. Kofi Annan's multilateral 
diplomacy as well. While the ``Annan Plan'' may have served to decrease 
the level of violence for the first 2 days following the announcement 
of the ``cease fire,'' Assad's heavy weapons are back at work against 
civilian neighborhoods in Daraa, Idlib, Homs, Rastan, Hama, and Deir-
ez-Zor.
    Moreover, the ``Annan Plan'' does not specify a timeline: How long 
should the U.N. tolerate Assad's violence, even if reduced, against the 
civilian population? At what point will the international community 
declare the ``Annan Plan'' a failure? How is ``failure'' defined and 
who defines it?
             factors on the ground and u.s. policy options
    A major factor that increases U.S. policy options is the 
humanitarian calamity that is taking place. How long can the United 
States watch massacres of unarmed civilians go on before implementing 
options other than economic and diplomatic sanctions?
    Washington has tied its own hands by linking its options to a 
consensus in the Security Council--although historical precedents 
demonstrate that the United States need not wait for a U.N. Security 
Council mandate.
    Within this context, and given the challenges and opportunities 
available to the United States, a middle-of-the-road approach (there 
must be something that can be done between supplying the FSA with cell 
phones and going on a unilateral rampage) consists in the U.S. 
threatening the Assad regime with the use of American force as this has 
a major psychological effect on Assad regime cronies should Assad elect 
to dig in his heels. Given the convergence of U.S. values (freedom and 
dignity of the citizen) and U.S. interests (geostrategic), the United 
States would be well advised to act in concert with the international 
community (e.g., France, Turkey, Qatar, Saudi Arabia, Tunisia) and lead 
a humanitarian effort by establishing humanitarian corridors to funnel 
relief, and safe zones in which the FSA can
 regroup--inside Syria. In this case, no American ``boots on the 
ground'' are necessary. Conceivably, the only boots on the ground 
operating in the Syrian theater would be those of the FSA.

    The Chairman. Thank you very much, Doctor.
    Dr. Alterman.

STATEMENT OF DR. JON B. ALTERMAN, ZBIGNIEW BRZEZINSKI CHAIR IN 
GLOBAL SECURITY AND GEOSTRATEGY; DIRECTOR, MIDDLE EAST PROGRAM, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Alterman. Mr. Chairman, Ranking Member, members of the 
committee, it is a great pleasure to be back in this room where 
I sat during the 99th and 100th Congress with my late boss, 
Senator Daniel Patrick Moynihan, in the days of Dick McCall and 
Andy Semmel; and of course, Bertie Bowman is an institution in 
this room. It is a special pleasure to appear before the 
committee rather than behind the committee, and also a special 
pleasure to not have to scribble furiously on my lap today.
    It is an honor to talk to you today about Syria. In a year 
of tremendous change in the Arab world, Syria is among the 
places where change would be most welcome.
    The Syrian people drew lessons from the political events in 
Tunisia and Egypt in 2011 which they watched live on 
television. The Syrian Government drew lessons too, and I would 
like to enumerate five of those lessons here.
    The first lesson that I think they concluded is concessions 
do not give you security. When Zine al-Abdine bin Ali and Hosni 
Mubarak gave concessions to the mobs, they only seemed to fuel 
the mob's anger. Moammar Qadhafi held out for months. And I 
think in the view of the Syrian Government, were it not for 
NATO air strikes, he would still be in power. So giving 
concessions does not solve your problem.
    Second, militaries still matter. In Egypt and Tunisia, the 
military decided the President's time was done. In Bahrain, the 
military helped decide the king would stay. Bashar al-Assad has 
been careful to cultivate his military assets, leaving elite 
brigades under the control of family members and ensuring that 
members of his own Alawite minority are in control of the 
senior officer and enlisted ranks.
    Third, allies matter and P5 allies matter the most. Assad 
has been careful not to make the mistake that Moammar Qadhafi 
made, utterly lacking any Russian or Chinese support. Assad has 
been careful to cultivate Chinese and Russian support.
    Four, minority rule is a resource. We often see minorities 
as a source of cleavages in a society, but if you have 
minorities, they often cleave to the Government for protection, 
and Bashar al-Assad has been very careful to play on the 
feeling of vulnerability among the minorities to stay in power.
    Five, the nature of the opposition matters. And of course, 
Bashar al-Assad has worked very hard to try to split the 
opposition, goading them to abandon the pursuit of a peaceful 
resolution of this conflict.
    What Bashar al-Assad is thinking is unknowable, but to the 
outside observer, it appears that he believes he can withstand 
the current challenge, much as his father stood down the 
Islamist opposition in Hama in 1982. Reports continue to 
surface that Assad is obsessed with comparisons to his father's 
leadership, with siblings and even his mother unfavorably 
comparing his resolve and his ruthlessness to that of his 
father.
    In my judgment, though, Assad has made fundamental 
miscalculations, particularly with regard to the outside world, 
which make his long-term survival unlikely.
    First, he has alienated Turkey, which is incredible because 
Turkey actually reached out to Assad and tried to embrace him. 
The strategy of zero problems with the neighbors has been cast 
aside. It would have been an asset to Assad, and he threw that 
card away.
    He has alienated Qatar and Saudi Arabia, two countries that 
decided that a cornered Bashar al-Assad was much more dangerous 
than one they engaged with, and yet they have given up hope on 
Bashar al-Assad and have decided he must go.
    I think he has failed to create durable alliances with 
China and Russia. When I speak to Chinese and Russian experts, 
what I hear is the sense that they have interests in Syria, but 
all of those can be managed. There is not the same vital 
interest in the survival of Bashar al-Assad.
    And I think he has failed to create a viable economy. It is 
an economy which 20 or 30 years ago relied on subsidies from 
outside powers and continues to rely on subsidies from outside 
powers. In my judgment, the Iranians are going to be 
preoccupied this summer. They are not going to want to throw 
him a lifeline. I think the Russians and the Chinese will 
negotiate. I think as the sanctions really start to bite over 
the summer, and he is going to have bigger problems.
    The timeline of ultimate change in Syria, though, remains a 
mystery. If there is a long war of attrition between the 
Government and the opposition, it could well drag on for years, 
as wars of attrition do. And I was in this room any number of 
times talking about the Contra war, which lasted for 10 years. 
It is worth remembering that sanctions isolated Saddam Hussein 
for more than a decade but were unable to remove him from 
power.
    Over the next year, Syria may tilt sharply toward civil 
war. With a ruthless government, a range of outside powers 
willing to support proxies, the possibility of staging attacks 
from neighboring countries, and a widespread perception that 
the alternative to victory is death, antagonists are likely to 
dig in. Levels of violence could escalate from what we have 
seen so far and approach what we saw in Iraq in 2006-2007, with 
a similar sectarian flavor.
    For those who seek change in Syria, it is worth noting that 
the more militarized this conflict becomes, the more the 
advantage accrues to the Government. Militarization puts the 
conflict into an area where the Government is likely to enjoy a 
permanent advantage in fire power and also legitimizes brutal 
attacks on civilian populations that radicalize segments and 
authenticates the narrative of a patriotic government fighting 
against foreign-financed brigands. The Syrian Government is at 
its weakest when other Syrians question its legitimacy, 
evidenced most clearly by massive peaceful protests. I draw one 
chief lesson from Tunisia and Egypt, two states with legendary 
internal intelligence services that had a reputation for both 
effectiveness and brutality: police can be effective against 
hundreds, but they cannot be effective against hundreds of 
thousands. The quick scaling of protest movements swiftly 
undermines the legitimacy of these governments. It is worth 
pointing out, though, that the immediate transition in these 
cases was not to a civilian government, but instead to some 
remnant of the former regime that acted in order to preserve 
its own institutional legitimacy.
    So I cannot give you a three-point plan on how to fix Syria 
this month or even how to avoid disaster in the next year. We 
need to be realistic, as the ranking member said, about how 
much we do not know in Syria and how much we cannot even begin 
to predict. Even so, I think several policy conclusions follow 
from the foregoing.
    One, as the chairman said, we have to plan for a long 
engagement. This is not likely to be a 1-month crisis, and we 
have to pace ourselves and appreciate that.
    Second, I do not think we should expect the opposition to 
sweep into power. As I think back over the last 40 years, I 
have not seen a lot of democratic opposition movements inherit 
the mantle of power after a dictator has been swept aside.
    Third, remember that militarization helps Assad. The more 
the protest movement looks like an armed insurrection, the more 
it will play into the hands of a relatively well-armed and 
well-trained Syrian army.
    Four, as Murhaf said, remember that diplomacy remains 
vital. In particular, keeping Russia and China open to the 
possibility of a change in government in Syria is essential.
    Five, be ready for nonlinear change. In my judgment, the 
most likely outcome, not necessarily the most desirable but the 
most likely, remains some sort of military coup which the 
neighbors see providing their best opportunity to preserve 
their interests at the lowest risk. Surrounded by neighbors 
that have the means, the resources, and the interest to make 
such a coup take place, I suspect that Bashar al-Assad will 
succumb to their actions.
    Last week, I chaired a panel with two former national 
security advisors, Brent Scowcroft and Zbigniew Brzezinski. 
There is something they both agreed on, which I agree fully. We 
cannot do this alone. We share strategic objectives with both 
Turkey and Saudi Arabia, and perhaps surprisingly there is a 
lot we agree on with both Russia and China. If we seek to fine-
tune a solution to the problems of Syria, we not only almost 
certainly lose Russia and China, but I think we are unable to 
be able to sustain Turkish and Saudi support. If we seek to 
avoid the worst outcomes in Syria, we are more likely to have 
their support and the support of others as well.
    The Syrian people have suffered and continue to suffer, but 
we cannot be their liberators. We will best serve their 
interests, as well as our own, if we work broadly with others 
to limit the most damaging outcomes that lay before us.
    Thank you.
    [The prepared statement of Dr. Alterman follows:]

              Prepared Statement of Jon B. Alterman, Ph.D.

    Mr. Chairman and members of the committee, it is an honor to talk 
with you today about Syria. In a year of tremendous change in the Arab 
world, Syria is among the places where change would be most welcome and 
where its ripples may have some of the most profound effects. As I see 
it, events in Syria are linked to those happening in the rest of the 
Arab world, although sometimes in surprising ways.
    The Syrian people drew lessons from the political events in Tunisia 
and Egypt in early 2011, which they watched live on television. Yet, 
while they drew lessons from those events, few recognize the lessons 
that the Syrian Government drew from those same events. I would like to 
enumerate five of those lessons here.

    (1) Concessions do not bring security. After watching President 
Zine al-Abdine bin Ali forced from power after 6 weeks, and President 
Hosni Mubarak in only 18 days, Bashar al-Assad likely concluded that 
that those leaders gave in too soon, and the public saw their 
willingness to negotiate as a sign of weakness. Assad surely noticed 
that Moammar Gadhafi held out for months, and would likely still be in 
power were it not for 6 months of NATO air assault.
    (2) Militaries still matter. In Egypt and Tunisia, the military 
decided the President's time was done. In Bahrain, the military helped 
decide that the King would stay. Bashar al-Assad has assiduously 
maintained control over the military since he first came to power in 
2000, and he has been careful to cultivate his assets there--leaving 
elite brigades under the control of family members, and ensuring that 
members of his own Alawite minority are in control of the senior 
officer and enlisted ranks.
    (3) Allies matter, and P5 allies matter most. Moammar Gadhafi 
mistakenly thought that his concessions to Western powers in 2003 and 
after would help secure his rule, and he never sought close ties with 
either China or Russia. When the U.N. Security Council voted a year ago 
to authorize the use of force in Libya, China, and Russia abstained. 
Syria has made no grand gesture to the West in the hopes of winning 
protection, and it has actively sought to cultivate support from both 
Russia and China. While neither country fully supports Assad, each has 
been a bulwark against collective international action that would 
remove him from power.
    (4) Minority rule is a resource. We often see minorities as a 
source of cleavages in a society, but the anxieties of minority groups 
can make them cleave to ruling governments. The 12 percent or so of 
Syrians who are Alawite, the 10 percent or so who are Christian, and 
the smaller Kurdish, Druze, and Armenian populations, are all a source 
of strength to Assad, for they fear dominance by the Sunni Arab 
majority. In many cases, they will fight to the death for the ruling 
government, because they fear ruin if it is deposed.
    (5) The nature of the opposition matters. The easier it is for the 
public to imagine a better alternative to the status quo, the more 
attractive that alternative will be. A confused and chaotic opposition 
that encompasses radical voices and includes supporters of violence is 
an asset to the ruling government, especially when it comes to 
maintaining the loyalty of urban elites who have the most to lose. 
While the Assad government has only indirect influence over the 
opposition, its interest is decidedly in encouraging splits in the 
opposition and goading the opposition to abandon the pursuit of a 
peaceful resolution of the conflict.

    What Bashar al-Assad is thinking is unknowable, but to the outside 
observer, it appears that he believes he can withstand the current 
challenge, much as his father stood down an Islamist opposition in Hama 
in 1982. Reports continue to surface that Assad is obsessed with 
comparisons to his father's leadership, with siblings and even his 
mother unfavorably comparing his resolve and his ruthlessness to that 
of his father.
    While most regional observers also believe the younger Assad 
compares unfavorably to his father, he appears to have several 
advantages that make him less susceptible to overthrow than some of the 
other regional leaders who have lost their posts in the last year. He 
has indeed managed to learn from the mistakes of others, and he seems 
committed not to make them. He has been able to maintain loyalty within 
his inner circle, in part through sectarian ties. He is also blessed 
with an opposition that, by many measures, is one of the weaker ones in 
the region. Even after a year of organizing, many who have worked with 
the oppositions in Libya and Syria believe that the Libyan opposition 
was much more organized than its Syrian counterpart. The Libyan 
opposition also had the benefit of controlling territory from the 
earliest days of the uprising, and it enjoyed the prospect of tens of 
billions of dollars in oil revenues to distribute annually. The Syrian 
opposition has none of those advantages.
    In my judgment, however, Assad has made fundamental 
miscalculations, particularly with regard to the outside world, that 
make his long-term survival unlikely.

    (1) Alienating Turkey. This is his biggest mistake, especially 
since Turkey had been assiduously courting him as part of its ``zero 
problems with neighbors'' strategy. After a long period of Turkish-led 
courtship, Turkey turned against Assad last August after what the Turks 
saw to be an insulting meeting between Assad and Turkish Foreign 
Minister Ahmet Davutoglu. Turkey's instinct in regional affairs in the 
last decade has been heavily oriented toward mediation and conflict 
resolution, but it has decided to pivot against the Syrian regime and, 
in their words, on the side of the Syrian people.\1\ Turkey now hosts 
much of the Syrian political opposition as well as the Free Syrian 
Army. Turkey is large and powerful enough that it can provide both a 
buffer for Syrian refugees and a base for antiregime operations. Little 
remarked, but equally important, Syria cannot use an alienated Turkey 
as a bulwark against global isolation. Were Turkey in its traditional 
role, it would be harder for the United States and its allies to 
squeeze Syria; with Turkey in a more hostile position, it is harder for 
Syria to escape the squeeze.
---------------------------------------------------------------------------
    \1\ Foreign Minister Davutoglu told a CSIS audience February 10, 
2012, ``We have problem, yes, with Syrian administration, but [not] 
with the Syrian people. And in the future, after a process, I am sure 
we will be having excellent relations with the new Syria, established 
by the people of Syria, with the free choice of Syria. In order to 
avoid the existing crisis, we cannot sacrifice for our future relations 
with Syria.''
---------------------------------------------------------------------------
    (2) Alienating Saudi Arabia and Qatar. For much of the last decade, 
these two countries have often sought to protect Assad, or at least to 
buy him off. After Syria's forced withdrawal from Lebanon in 2005, 
Qatar and Saudi Arabia put money into Syria in order to secure peace 
and out of a conviction that, if cornered, Bashar would be ferocious. 
That conviction has yielded to a determination that he should--and 
must--go, in part driven by the GCC's sense of accomplishment for 
having helped drive the loathed Moammar Gadhafi from power. Some view 
GCC hostility as an outgrowth of the gulf leaderships' efforts to 
weaken their perennial nemesis, Iran, through weakening Iran's Syrian 
proxy. The dispute has more personal roots as well. Bashar seems to 
hold special disdain for the hereditary rulers of the gulf, seeing them 
as wealthy Bedouin with neither education nor culture, and blessed only 
with deep pockets. They see him as the callow heir to his father, with 
neither the wisdom nor the resolve to guide his country successfully. 
Neither side sees the other as a worthy peer.
    (3) Failing to create durable alliances with Russia and China. 
Neither country seeks Assad's demise, and each is alarmed at the 
prospect of a popular revolution giving rise to a potentially pro-
Western state in the Eastern Mediterranean. Still, neither country 
appears to share a vital interest in Bashar's survival, each is 
confident a successor regime can meet all of its needs, and each is 
cautious of ending up on the wrong side of another popular revolution.
    (4) Failing to create a diversified economy. Syria has been a 
client state for decades, first of the Soviet Union, and then of a 
combination of Iran, Iraq and the GCC states. After relying heavily on 
support from the outside, that support is no longer coming. By summer, 
international sanctions will be biting hard. The Iranians are unlikely 
to be a savior, as they will have their own priorities and 
preoccupations. Syria relies heavily but not completely on imported 
fuel, and that fuel will become harder to obtain. Syria is, in many 
ways, both economically isolated and economically dependent, and that 
will create significant problems going forward.
    (5) Becoming less preferable to many than the unknown. Assad's 
behavior has become so noxious that a faceless leader is preferable to 
virtually all of Syria's neighbors, as well as to many Syrians. While 
all of Syria's neighbors seek to avert chaos in the country, none has a 
particular urge for democratic governance there, either. The 
conservative GCC states would be concerned by the precedent of a 
popular revolution, and Israel would be concerned by the prospect of 
another Islamist state on its borders. Many Lebanese seek stability of 
any kind, while Iraq maintains a grudge against Bashar for what he did 
facilitating the passage of Sunni extremists into Iraq (although they 
certainly do not want those extremists to run post-Assad Syria, 
either). In many ways, a military coup, whether led by Alawi or Sunni 
officers, meets all of their needs. It is unclear how such a coup could 
arise--which is not to say one would not.

    The timeline of change in Syria remains a mystery. If there is a 
long war of attrition between the Government and opposition, it could 
well drag on for years, as most wars of attrition do. It is worth 
remembering that sanctions isolated Saddam Hussein for more than a 
decade but were unable to remove him from power. Saddam had more assets 
than Assad does, but he also had more enemies. They were not enough to 
do him in.
    Some argue that social media is a game changer here, making long-
term and large-scale repression impossible. I am less sure. Certainly, 
social media makes is easier for the outside world to see what is 
happening in Syria. Yet, social media also makes it possible for the 
Syrian Government to track networks and understand how the opposition 
works. I also do not know how long the world will continue to care 
about Syria if it seems like events there have fallen into a stalemate. 
Syrians are not heavily wired, and the Government controls all of the 
mobile phone networks. Secure communications on a broad level is 
difficult. U.S. law has made the export of encryption technology to 
Syria illegal for many years, although some encryption is freely 
available on the Internet. I have no idea how many Syrians have been 
able to obtain such technology through smuggling and circumventing 
government censorship; I am not sure anyone has a much better idea.
    Over the next year, Syria may tilt sharply toward civil war. With a 
ruthless government, a range of outside powers willing to support 
proxies, the possibility of staging attacks from neighboring countries, 
and a widespread perception that the alternative to victory is death, 
antagonists are likely to dig in. Levels of violence could escalate 
from what we have seen so far and approach what we saw in Iraq in 2006-
2007, with a similar sectarian flavor. For those who seek change in 
Syria, it is worth noting that the more militarized this conflict 
becomes, the more the advantage accrues to the Government. 
Militarization not only puts the conflict into an area where the 
Government is likely to enjoy a permanent advantage in firepower. It 
also legitimizes brutal attacks on civilian populations that radicalize 
segments and authenticates a narrative of a patriotic government 
fighting against foreign-financed brigands. The Syrian Government is at 
its weakest when other Syrians question its legitimacy, evidenced most 
clearly by massive peaceful protests. I draw one chief lesson from 
Tunisia and Egypt, two states with legendary internal intelligence 
services that had reputations for both effectiveness and brutality: 
police can be effective against hundreds, but they cannot be effective 
against hundreds of thousands. The quick scaling of protest movements 
swiftly undermined the legitimacy of these governments. It is worth 
pointing out, however, that the immediate transition was not to a 
civilian government, but instead to some remnant of the former regime 
that acted in order to preserve its own institutional legitimacy.
    I cannot give you a three-point plan on how to fix Syria this 
month, or even how to avoid disaster in the next year. We need to be 
realistic about how much we do not know in Syria and how much we cannot 
begin to predict. Even so, a number of policy conclusions that flow 
from the foregoing:

    (1) Plan for a long engagement. Tunisia and Egypt created an 
expectation that change could be fundamental and swift. Bashar has 
learned those lessons. Even though I think political change is quite 
likely, the odds of it happening this month, next month, or even in the 
next several months, remain low.
    (2) Do not expect the opposition to sweep into power. I do not 
think it is likely that the opposition will constitute a viable 
alternative government in the near or even intermediate term. It 
remains too divided, too feckless, and too torn by jealousy. Over time, 
successful donor coordination--for both humanitarian relief and more 
lethal assistance--can help forge chains of command and create 
incentives for greater cooperation. I do not think a putative 
government in exile is any more likely to come into power in Syria than 
was the case in Iraq.
    (3) Understand that militarization helps Assad. The more the 
protest movement looks like an armed insurrection, the more it will 
play into the hands of a relatively well-armed and well-trained Syrian 
army. Armies have proven relatively ineffective dealing with massive 
protests of hundreds of thousands of people that deny legitimacy to the 
ruler and ultimately threaten the legitimacy of the army if it 
confronts the people. Sustaining a focus on legitimacy rather than 
armed confrontation will save lives and harm Bashar much more than a 
guerrilla war would.
    (4) Remember that diplomacy remains vital. In particular, keeping 
Russia and China open to the possibility of a change in government in 
Syria is essential. Full coordination with Saudi Arabia and Turkey and 
other friendly states will make both their efforts and our own much 
more effective. Maintaining order as refugee flows into neighboring 
countries increase will also require extensive diplomatic efforts on 
all aspects of donor coordination. The chief strength of the Annan 
Plan, in my view, is not in its effect on Syria. Instead, it is in its 
effect on the countries outside of Syria, providing unity and a sign of 
resolve.
    (5) Be ready for nonlinear change. With no territory to control, 
and no country seemingly willing to cede a buffer zone, it is hard to 
imagine a Vietnam- or Afghan-like insurgency that eventually takes over 
the country. I am also extremely pessimistic that Bashar al-Assad will 
make any meaningful concessions under any circumstances. While Assad 
has talked a language of compromise, his instinct, revealed in a 
personal conversation with me as well as in other venues, is that 
compromise is a sign of weakness, and resistance is a sign of strength. 
Because he is consumed with his own sense of weakness, he would see 
compromise as threatening his power (as it ended the rule of Ben Ali 
and Mubarak). In my judgment, the most likely outcome remains some sort 
of military coup, which in the estimation of the neighbors provides the 
best assurance of a relatively positive outcome with the least risk. 
Surrounded by neighbors who have both the means, the resources and the 
interest to make such a coup take place, I suspect he will succumb to 
their actions.

    Last week, I chaired a panel with two former national security 
advisers, Brent Scowcroft and Zbigniew Brzezinski. They were extremely 
cautious about Syria, arguing that we lack both the instruments and the 
understanding to effect positive change there. While I have a healthy 
dose of humility about our ability to shape outcomes in Syria, I am a 
little less pessimistic than they are about our ability to play a 
positive role. There is one thing they both agreed on, and on which I 
agree fully: we cannot do this alone. We share strategic objectives 
with both Turkey and Saudi Arabia, and perhaps surprisingly, there is 
much we agree on with both Russia and China. If we seek to fine-tune a 
solution to the problems of Syria, we will not only lose Russia and 
China with certainty, but we are unlikely to be able to sustain Turkish 
and Saudi support. If we seek to avoid some of the worst outcomes in 
Syria, we are more likely to have their support, and the support of 
others, too. It is not hard to imagine how continued turmoil in Syria 
could reverberate broadly throughout the Middle East and even into the 
Caucasus. There is a wide variety of contingencies that many are quite 
eager to avoid.
    The Syrian people have suffered and continue to suffer, but we 
cannot be their liberators. We will best serve their interests, as well 
as our own, if we work broadly with others to limit the most damaging 
outcomes that lay before us.

    The Chairman. Thank you.
    You are batting clean-up there, Dr. Wittes.

 STATEMENT OF DR. TAMARA COFMAN WITTES, DIRECTOR, SABAN CENTER 
FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION, WASHINGTON, 
                               DC

    Dr. Wittes. Thank you, Mr. Chairman, Ranking Member Lugar, 
members of the committee. I am delighted to appear before you 
today.
    As we have noted, the tentative cease-fire is already 
breaking down, but the cease-fire was only ever a single 
component of a six-point plan, and the other five points have 
fallen by the wayside.
    At this point, the world cannot allow Syria to waste time 
wrangling over every preliminary element of implementing a 
cease-fire. Without a rapid start to a political process that 
will lead to meaningful change, including Assad's departure 
from power, there is no way forward for diplomacy to reduce 
human suffering and promote lasting stability for Syria and the 
region.
    Now, diplomacy still remains preferable to an escalation in 
violence on the ground that carries dire human costs and risks 
of regional consequences. But there is not much time and 
diplomacy must be forceful to be effective.
    I believe international diplomacy must, therefore, focus 
relentlessly on bringing about a political transition and the 
establishment of a Syrian Government accountable to its people, 
and I would outline several key components of such a strategy.
    First, sustain and scale up sanctions, accountability 
efforts, other measures that apply pressure on the Syrian 
regime and those who support it. Over time, such steps can help 
to erode the unity of Assad supporters in the country and 
facilitate a transition that puts Assad out of office. The 
Annan plan's dialogue process is one means, but not the only 
means, by which that could happen.
    Second, I think we must focus diplomatic efforts with 
Russia not on specific words or actions in New York, but on 
helping them achieve the fundamental realization that my 
colleague just discussed, that Assad faces a permanent 
challenge to his unaltered rule and that they need to seek a 
way now to preserve their relationship with Syria but not with 
Assad himself.
    Third, I think it is important that we not try to impose an 
arms embargo through the United Nations. We cannot halt or 
reverse the militarization of the Syrian uprising. It has 
happened and it is happening. An international arms embargo 
will not stop Iran's resupply of Syria. It will simply freeze 
in place a dreadful imbalance of forces on the ground. Instead, 
I believe the United States should lead in managing 
militarization, working with other governments to try to shape 
the activity of armed elements on the ground in a manner that 
will most effectively increase pressure on the regime and 
contain, as much as possible, the spillover effects on Syria's 
neighbors.
    I do not believe militarization inevitably advantages 
Assad. He does not need a rhetorical justification to resort to 
violence. He is already perfectly willing to do so. His 
military so far has not been particularly strained in dealing 
with this uprising. They have been able to choose their 
battles, fight them largely one at a time.
    Fourth, I think it is important to scale up support for the 
political development of the Syrian opposition to help them 
improve their internal cohesion and their ability to represent 
the Syrian people. The factionalism that is evident among 
opposition activists is an unsurprising outgrowth of the severe 
repression and political stagnation of the Syrian context. This 
is a legacy that can be overcome but not by fiat, and the 
international community, including the United States, must 
invest strongly in helping opposition activists build a vision 
for the future that can be used to unify and build support. And 
we need to help them improve their communication, especially 
with Syrians inside and outside the country.
    But even with all these steps in place, coercive diplomacy 
may well fail. Assad only acts under extreme pressure. We have 
seen that already. Demanding his removal is an existential 
challenge. So dithering over diplomatic measures while ruling 
out more coercive options is the quickest path to irrelevance 
for U.S. policy. If international pressure slackens, if the 
opposition fails to present an effective alternative, then key 
Assad constituencies will stop thinking that abandoning him may 
be their wisest path to self-preservation. A weakened Assad 
still in place would be even more dependent on Iran, and the 
Syrian people would suffer not only from his continued rule, 
but from sustained isolation and economic hardship, along with 
the insecurity wrought by an ongoing insurgency. The other 
alternative outcome is a protracted and bitter civil conflict 
possibly leading to state failure with all of the attendant 
dangers not only for the neighborhood, but for Syria's longer 
term future.
    Neither of these outcomes are palatable to the United 
States. That means we must do more now to prevent these 
outcomes from coming to pass. Early consultation, planning, and 
preparation for more robust steps would enable the United 
States to maximize the extent to which others might participate 
in or even take the lead in some of these actions.
    Now, some would argue that this might begin a slippery 
slope to direct intervention. I would argue instead that 
anticipating the possible failure of diplomacy, preparing for 
more coercive options is not only realistic, but it is also 
necessary to create the pressure that will give diplomacy its 
best chance of success.
    Thank you very much.
    [The prepared statement of Dr. Wittes follows:]

           Prepared Statement of Tamara Cofman Wittes, Ph.D.

    Mr. Chairman, Senator Lugar, thank you for inviting me to appear 
today before the committee to discuss policy options for the United 
States in Syria.
    The tentative cease-fire established a week ago is already breaking 
down, with human rights groups suggesting that about 20 Syrians have 
died each day since last Thursday. Syrian forces continue their 
shelling and refuse to withdraw from urban areas, and international 
monitors are facing stiff challenges to beginning their work on the 
ground. And yet the cease-fire was only ever one, initial component of 
U.N. and Arab League Envoy Kofi Annan's six-point plan. The ultimate 
goal was to begin a political process that would include the opposition 
and would lead to meaningful change. Thus, the facts so far do not bode 
well for a diplomatic strategy.
    If Annan sought to end the violence and begin a political dialogue, 
we have so far seen only shaky progress toward the former, and no move 
toward the latter at all. The relative reduction in violence this past 
week did open a small window for the United Nations. The insertion of 
international monitors, if they can work with autonomy and freedom of 
movement, could help to keep violence down and encourage renewed 
peaceful protests. But the world must not allow Syria to waste time 
wrangling over every preliminary element of implementing a cease-fire. 
Without a rapid start to a political process that will lead to 
meaningful change, there is no way forward for diplomacy alone to 
reduce human suffering and promote lasting stability for Syria and the 
region.
    Still, the path of coercive diplomacy remains the only alternative 
to an escalation in violence on the ground that would have dire 
humanitarian consequences, and would present the danger of spiraling 
instability in Syria's already-volatile neighborhood. It remains, 
therefore, the preferred path to achieve the goal shared by the United 
States and many other governments, the same goal clearly and 
consistently articulated by the Syrian people over more than a year--
the removal of Bashar al-Assad from power.
    Today, then, international diplomacy must focus relentlessly on 
bringing about a political transition and the establishment of a Syrian 
Government accountable to its people. Any diplomatic effort must be 
backed by equally relentless pressure, focused on key pillars 
supporting the Assad regime: the military, the commercial elite in 
Aleppo and elsewhere, and the Alawi community. Sanctions, efforts at 
human rights accountability, and support to the Syrian opposition are 
all useful forms of pressure, but more can and must be done. In the 
end, more coercive options must be planned and prepared for--not only 
in case diplomacy fails, but in order to give it the best chance of 
success.
    The role of Russia remains crucial, and the time has come for a 
clear decision. The Russian Government, which finally and belatedly 
threw its weight behind the Annan Plan, faces a challenge to its 
international credibility if it cannot use its leverage effectively to 
compel Assad to maintain the cease-fire, to allow international 
monitors to operate freely, and to fulfill the other elements of the 
Plan, including most importantly allowing a political dialogue to 
begin. It should be obvious to Russia by now that Assad faces a 
permanent challenge to his unaltered rule--that Syrian military forces 
cannot decisively crush either the armed insurgency or the peaceful 
protest movement. Continued brutality at this scale is thus both futile 
and, as the economy buckles and the military tires, increasingly 
unsustainable.
    It is difficult, but not impossible, to envision Russian 
policymakers under these circumstances seeking a way to preserve their 
relations with Syria, but not with Assad himself. The United States and 
others should focus their engagement with Russia, not on specific words 
or actions in New York, but on a realistic assessment that will lead 
Russia at last to acquiesce in efforts to move toward a Syria without 
Assad. This shift would dramatically increase pressure on the Syrian 
regime, and itself might help induce key Syrian actors to seek a way 
out, and make political change possible. The Russians should not waste 
any more time or any more Syrian lives in making their choice.
    On sanctions, the United States has successfully worked with allies 
and partners in the region and globally to apply unprecedented pressure 
on the Syrian regime and on figures within it who are directly 
responsible for human rights violations. These sanctions are slowing 
eroding the regime's ability to fund and sustain its repression and 
insulate its supporters from harm. The new Sanctions Working Group that 
met this week in Paris is a good way for governments to share 
information needed to maximize the application and impact of their 
sanctions. Given time, this pressure may help to erode the unity of 
Assad's supporters in the military and commercial elite of the country, 
and could facilitate a transition that takes Assad out of office.
    Accountability measures are also important, because they increase 
the incentives for regime supporters to disassociate themselves from 
the vicious brutality now being practiced on Syrian citizens, and from 
those who order it and carry it out. The new accountability initiative 
launched by the Friends of the Syrian People can offer further positive 
impact, in that its efforts to train and equip citizens for human 
rights monitoring also improve their ability to communicate and 
organize, helping those within Syria to strengthen their efficacy and 
their ability to engage as part of the opposition and shape their 
country's future. But although many assume human rights documentation 
is directed toward enabling a referral of violators to the 
International Criminal Court, this step may not be consistent with 
political efforts to loosen Assad's grip on power. In the current 
phase, it does not make sense to restrict the options for a negotiated 
transition by demanding that Assad be tried for his crimes, no matter 
how heinous they undoubtedly are.
    It's also important to recognize that certain actions, which might 
potentially be seen as increasing pressure on Assad, could, in fact, be 
counterproductive. An international arms embargo, for example, might be 
seen as a logical next step in enforcing and maintaining a cease-fire. 
However, an arms embargo would not reduce violence--at best it would 
simply freeze the deep imbalance in armed capability currently evident 
on the ground, leaving the Syrian Government with a massive advantage 
and denying Syria's scattered insurgents the basic tools they need to 
slow down the regime's onslaught against civilians and sustain pressure 
on the Syrian military. Moreover, an embargo is unlikely to work--even 
if Russia could be convinced to support such a measure at the U.N. 
Security Council, the Iranians would be highly unlikely to comply, 
making the move fruitless as a way of constraining the regime's 
repressive capacity.
    With Iran resolutely supplying the regime, and with Gulf States 
already providing cash for salaries to the Free Syrian Army's soldiers 
and talking about lethal aid, the militarization of the Syrian uprising 
is proceeding apace. But while an armed opposition might be able to 
fight an effective insurgent campaign, it's not at all clear that they 
would be able to bring down the regime. At worst, uncontrolled 
militarization will turn the Syrian uprising into a wider conflict that 
could draw in jihadis and other extremists from across the Muslim 
World, offer up tempting ungoverned spaces to terrorists and organized 
criminals, and produce refugees and other ripple effects that could 
destabilize Iraq, Lebanon, and possibly other neighbors.
    But this possibility must not deter clear thinking: the United 
States cannot halt or reverse the militarization of the Syrian 
uprising, and should not try. What the United States can usefully do is 
manage this militarization by working with other governments, 
especially Syria's neighbors in the region, to try to shape the 
activities of armed elements on the ground in a manner that will most 
effectively increase pressure on the regime--to drain the Syrian 
military's ability and will to fight, to help induce a political 
transition, and thereby to bring an end to the violence as quickly as 
possible. Without a strong lead driven by the strategic logic of 
weakening the regime's pillars, disparate actors both inside and 
outside the region could provide lethal support in ways that would 
exacerbate spillover effects and increase the damage militarization 
will cause to the goal of restoring order in a post-Assad Syria. To do 
this, the United States should drive the international planning and 
engagement necessary to identify key armed leaders and elements, 
improve coordination and communication, build effective fighting units, 
and shape an effective insurgent strategy. At the same time, Syria's 
immediate neighbors will need extra support in border security, refugee 
relief, and other areas to ensure that the effects of militarization in 
Syria do not destabilize them as well. Working to manage the uprising's 
militarization, focus its impact on the Assad regime, and contain its 
impact on the neighborhood, is essential to ameliorate the instability 
that Assad unleashed by choosing to declare war on his own people.
    In this context, it's absolutely crucial that the United States and 
other governments continue to scale up their support for the political 
development of the Syrian opposition. The opposition activists most 
urgently need to improve their internal cohesion and their ability to 
effectively and authoritatively represent the Syrian people in any 
political process--without this, it is hard to see how a political 
transition can lead to a better or more stable future for Syria. The 
factionalism and mutual mistrust evident amongst the Syrian opposition 
activists are unsurprising outgrowths of the severe repression and 
political stagnation of the Syrian context. This legacy can be 
overcome, but not by fiat, not through exhortations, and not overnight.
    To become a more effective and unified force, the Syrian opposition 
activists need to focus on three key goals: inclusion, a shared vision 
for the future, and consistent communication with Syrians both inside 
and outside the country. Some in the opposition may wonder what the 
utility is of planning for a post-Assad Syria, when Syrians are under 
assault today. In fact, developing and marketing a vision for post-
Assad Syria that demonstrates organization and a commitment to 
inclusion and democratic accountability is perhaps the key means 
through which the activists can overcome their existing differences, 
mobilize wider support, and represent something beyond factions and 
personalities. The international community, including the United 
States, must invest strongly in helping opposition activists--inside 
and outside Syria--communicate and plan jointly for the future.
    The current moment poses challenging questions for the United 
States, and for all those governments who are working for consensus in 
New York and through the Friends of the Syrian People contact group. 
Assad has already demonstrated his willingness to use as much violence 
as he deems necessary to preserve himself in power. However, the regime 
that a few months ago appeared to be at a tipping point may hold on, 
weakened but still viable. If the international pressure slackens, or 
if the opposition fails to present an effective alternative, key Assad 
constituencies will stop thinking about the possibility of abandoning 
him as a path to self-preservation. A weakened Assad would be even more 
dependent on Iran, and the Syrian people would suffer not only from his 
continued rule but from sustained isolation and economic hardship along 
with the insecurity wrought by an ongoing insurgency.
    If, as is increasingly likely, Annan's plan fails to produce a path 
to political change, and if increased pressure from steps like 
sanctions, militarization, and a more effective opposition do not 
coerce the Syrian regime's internal supporters into removing Assad and 
opening up to the opposition, then two outcomes are possible: either 
protracted civil conflict, with all the attendant dangers both for the 
neighborhood and for Syria's future; or a weakened Assad who continues 
to rule, but with fewer constraints on his behavior, including his 
support for Iran or Hezbollah and his hostility to his neighbors. If, 
as I believe, neither of these outcomes are palatable to the United 
States, then we must take heed now of what more must be done to prevent 
these outcomes from coming to pass.
    Some would argue that pursuing the above set of recommendations 
begins a ``slippery slope'' to direct intervention. I would argue 
instead that anticipating the failure of diplomacy and preparing for 
more coercive options is not only realistic, it is also necessary to 
create the pressure that will give diplomacy its best chance of 
success. It's quite clear that Assad only acts under extreme pressure, 
and that demanding his removal is an existential challenge. Dithering 
over diplomatic measures, while ruling out more coercive options, is 
the quickest path to irrelevance for U.S. policy. Furthermore, early 
consultation, planning, and preparation for more robust steps would 
enable the United States to maximize the extent to which others might 
participate in or even take the lead in those actions. This, too, would 
strengthen our diplomatic muscle, and increase the likelihood of a 
swifter, less costly, more satisfactory resolution to the Syrian 
crisis.

    The Chairman. Well, thank you very much. All of these views 
are very helpful, and I think they sort of set the stage for us 
to probe the thinking here a little bit.
    I mean, just as an overall comment, my reaction is that we 
have had purposefully different sort of views about where we 
are going to go here, but that does not make a policy. We have 
got to kind of pull it together into something coherent. And it 
strikes me that you have really got to sort of decide what our 
strategic interest is and what is, obviously, achievable and 
how do you go at this.
    Now, do you all agree that--I mean, the rhetoric has been 
really clear by leaders here and elsewhere that Bashar al-Assad 
cannot stay and that one way or the other, he is going to go. I 
mean, it may be a prolonged, messy, bloody process, but 
ultimately most people are suggesting that there is an end. Is 
that correct? Are we all in agreement on that?
    Dr. Alterman. Sir, I think it is likely that he will have 
to go because of his own failures in leadership. I am not in 
the certainty business, and I cannot predict with certainty. 
But I would say there is more than 70, perhaps more than 80, 
percent likelihood in the next 3 years----
    The Chairman. What is the implication if he did not go? If 
he succeeds in putting this down and he stays on, what are the 
implications for American policy for the Middle East?
    Ms. Wittes.
    Dr. Wittes. Well, Mr. Chairman, I think first of all, he 
would be weakened. That would make him fall back increasingly 
on that Iranian support. That would be his only lifeline. He 
would have absolutely zero incentive to refrain from the kind 
of troublesome behavior that we have occasionally 
intermittently seen from the Syrian regime over the years.
    The Chairman. Well, let us be more explicit. So support for 
Hezbollah, threats to Israel, movement of Scuds, arming of 
people that we do not want to have arms, a whole bunch of other 
things, I assume you make the judgment, they would then be 
empowered and be more threatening to our interests. Would they 
not?
    Dr. Wittes. I think that is the likeliest possibility if he 
hangs on.
    The Chairman. Would not Iran take very, very significant 
confidence-building sense of whatever empowerment, et cetera if 
he did? What would it mean to Iran, Dr. Jouejati?
    Dr. Jouejati. It would become even more formidable of a 
power. It would have a tremendous psychological boost and also 
a military boost in the area as it continues to have a reach 
into the Arab-Israeli conflict through the Syrian conduit. It 
would be emboldened vis-a-vis Gulf Arabs. If Bashar al-Assad 
survives, this is a major victory for Iran. It is a major 
victory for Hezbollah. If, on the other hand, Assad falls--and 
I never like to be clear-cut, but I think it is inevitable 
because there is simply no going back to business as usual--if 
he falls, that will greatly weaken Iran as it would no longer 
have that reach into the Arab-Israeli conflict. It would weaken 
Hezbollah, and I think then the Lebanese people can breathe 
freely.
    The Chairman. So if you have an Alawite minority of about--
what--11 percent of the population that is continuing to run 
the country with a Sunni majority and then a mix of others 
making up the rest of the population, what does that portend 
once this--I mean, this has been unleashed now. And it is not 
purely sectarian. I do not want to define it in that term, and 
I think you would all agree. It is not purely sectarian.
    But if you have this awakening, spring, whatever you want 
to call it, this desire for change, desire for something 
different and the fact that you have a million and a half 
people displaced internally, 130,000 who are refugees outside, 
people with weapons who are going to continue to arm and fight, 
and 10,000 people to date killed, and as you have said, five of 
the six principal components of the Annan plan not being 
implemented and the sixth kind of viewed by most people as a 
delaying tactic as people are obviously being killed right in 
front of monitors, it seems to me that you have almost got a 
certainty guaranteed that struggle is going to continue. Does 
anybody here disagree with that?
    Dr. Jouejati. I think when the Assad regime collapses, 
things will get worse before they get better. I think there 
will be many vendettas, a lot of vengeance killings. I think 
there will be many remnants of the regime who would want to 
show that there was stability under Assad and instability now 
through car bombs and IED's and so on.
    The Chairman. But that is assuming they were in utter 
collapse. What I talked about in my opening, that conceivably 
diplomacy and pressure efforts with China, Russia--and if the 
Russian attitude on this changed and the Chinese attitude on 
this changed, I rather suspect that a lot of attitudes are 
going to change in Damascus and elsewhere. And then the 
question is could you conceivably have a more orderly 
transition process that is, in fact, negotiated and structured, 
not unlike Saleh in Yemen or some other examples we have seen 
in the past. So does it have to be a choice between an utter 
collapse and civil war or the continuation of the regime?
    Dr. Alterman. Mr. Chairman, my understanding--you have met 
Bashar al-Assad many more times than I have, although I have 
met him and he strikes me as somebody who is a little bit 
insecure, who has siblings and other family members who keep 
saying, ``Why can you not be a man?'' And I think under that 
circumstance, it is unlikely for him to make the kind of 
honorable deal to leave, because he does not have the 
confidence to make that deal.
    Whether there could be some part of the regime which would 
agree to open up in the absence of Assad, some sort of split 
within the regime to lead to a more orderly transition, I think 
that is very feasible. I just do not know how to make it 
happen. But I think it is certainly feasible.
    The Chairman. But as you move towards that, if the economic 
pressures were to be increased and you changed the dynamic with 
respect to the Free Syrian Army and the National Council, and 
you have this unity of purpose between the Turks, the 
Jordanians, the Emiratis, the Qataris, the Saudis, et cetera, 
plus the West, you have a pretty significant dynamic beginning 
to develop. Then the calculations. I mean, you have already 
talked about the numbers of generals who have defected. I know 
for a fact there are a lot more colonels who have defected and 
a lot more people at lower levels.
    So, I mean, the people's calculation begins to shift 
depending on how determined the outside world is. If the 
outside world is feckless and casting about and kind of, ``oh, 
my gosh, we do not know what we can do, we cannot do much,'' et 
cetera, et cetera, boy, is that a message to them to go kill a 
few people and continue to do what they are doing. Is it not?
    Dr. Wittes. Senator, I agree completely. I think that is 
precisely why diplomacy needs to focus on how effectively to 
maximize pressure on all of the supporters of the regime, 
whether it is military officers, people within the Alawite 
leadership, people within the business elites. All of these are 
important pillars of the regime, and you have got to start to 
chip away at their cohesion. I think if we can be successful at 
doing that, the likeliest outcome is not necessarily a 
negotiated transition but some kind of power grab or coup. And 
that would allow an opening for engagement with the opposition. 
But we would have to remain on guard to ensure that what 
follows is an open process.
    The Chairman. Well, there are more questions. Let me turn 
to my colleagues. My time is up, but I think we have to start 
getting into a sort of reality track here rather than bouncing 
around the way everybody has been a little bit here.
    The National Council is going to be here. Next week, this 
committee will be meeting with its members and I hope all our 
members will take the opportunity to come and meet with them 
and have this kind of discussion, and I think we can learn a 
great deal in doing so.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    As some of you have recounted the history of Arab Spring in 
recent months, in Tunisia essentially the regime resigned 
without much intervention from anywhere. When we came to Egypt, 
fairly early on the administration made statements to the 
effect that Mubarak must go. Of course, this situation was even 
more pronounced with regard to Libya. And for nearly 1 year, 
our President and our Secretary of State have said Bashar al-
Assad of Syria must go.
    As Dr. Alterman has pointed out, maybe the differences are 
that in Egypt essentially the military did not proceed to 
support Mubarak and, as a result, he did go. And largely the 
military took hold. Some would argue the military still 
maintains control despite the procedures toward election of 
representatives and maybe a president.
    In the case of Libya, not only did Qadhafi not go very 
fast, but it really took extraordinary intervention by NATO 
countries to finally drive him out.
    And now we come to the Syrian question, andthe 
administration has indicated that Assad must go. The military 
in Syria still appears very strong despite desertions of some, 
and the military is pretty large in comparison with all of the 
potential opponents, even if they were consolidated and armed 
by people from outside. And so the military is probably in a 
position to defeat these folks. I would say that the 
relationship between the leader, therefore, and the military is 
fairly critical, and perhaps there will be some who want to 
desert but others may see that as life-threatening for them as 
military officers and others. We received some reports 
questioning whether there are divisions between Alawites and 
the Sunnis or the officiers and the enlisted personnel, but 
these reports are not very well developed at this point.
    My point is that, as you pointed out, the military has not 
really been strained to date and probably will not be unless a 
lot of people are armed and somehow better organized, and that 
could take quite a long while if there is to be that kind of 
military conflict with or without Assad. Maybe he goes and the 
military fights it out with whoever else is there to maintain 
the status quo in the country.
    Now, I mention all this because there is, I think, almost 
an illusion that our overall goal is somehow to formulate a 
government that is acceptable to the Syrian people, the 
implication being that there will be some degree of citizen 
participation and democratic procedures, yet I see no 
conceivable evidence that this is likely to occur within the 
next 5 years or the next decade. What could occur with or 
without Assad is a military dictatorship of people trying to 
pursue their own interests, and these may be sectarian 
interests quite apart from the military's interests as an 
institution.
    Now, under those circumstances, we talk about diplomacy to 
bring about something, conceivably a cease-fire. But as I 
understand from press accounts, the administration as we speak 
is talking about some sort of a pivot to plan B in which maybe 
we talk about zones, zones on the border, in Syria, or 
elsewhere that offer relief or possibilities of organization or 
training to various elements. However, there is the implication 
that would create the need for somebody in our military or 
somebody else's military to guard the zones to make certain 
that the Syrian army did not simply mop them up. In essence, it 
may be not a full-scale military operation, but it does have 
implications of military involvement, I hope not our own.
    Having just heard this sort of the analysis, why at the 
present time, first of all, have we been so intent on the fact 
that Assad must go? And second, if that continues to be our 
policy, are we prepared really to try to deal covertly with the 
Syrian military as the most likely reason why he would go? And 
if not, what other military? How do we organize this military? 
This is a real challenge to a very large army that is there now 
and that may fight for its existence.
    Dr. Wittes, do you have a thought about this?
    Dr. Wittes. Well, Senator, let me start by saying one 
general word, which is that fundamentally the American interest 
here is in stability. This crisis is deeply destabilizing. The 
longer it goes on, the more destabilizing it will be for Syria, 
for its immediate neighbors, and for the region as a whole. And 
I think the longer it goes on, the more likely it is to become 
intensely sectarian in a way that will be deleterious to our 
interests over the long term.
    The second aspect of stability and the quest for stability 
here relates to the fundamental lesson of the Arab Awakening, 
which is that lasting stability in the Arab world is only going 
to come when citizens feel that they have governments that are 
responsive and accountable. And until that happens, you are 
going to see these forms of dissent continue to emerge with all 
of the attendant consequences.
    So having recognized those two realities on the ground, if 
you will, I think our interest is in finding a resolution to 
this that brings that new foundation for stability about as 
quickly as possible. And when it comes to the options for using 
coercive force to put more pressure on the regime and bring 
about a quick transition, we should not be thinking about 
acting alone. Syria's neighbors are the ones who are already 
suffering the consequences of this instability. They have the 
most direct stake. We are in very close contact with them, and 
we need to be sure that that conversation includes these types 
of options which they would have to be very directly involved 
in.
    Senator Lugar. Could I ask Mr. Alterman for a comment?
    Dr. Alterman. We have a hard time fine-tuning the outcome 
of political changes in other countries. We do not have very 
good instruments to do it. I think that we can have a broader 
coalition the less we try to fine-tune.
    I was cautious about calling for Bashar al-Assad to go not 
because I do not want him to go, but because that then invites 
the question of ``What are you doing?'' And then, ``OK, that is 
what you were doing last week?'' What are you doing this week? 
And you start getting into a situation where the expectations 
of your abilities exceeds your abilities.
    As I say, in my career I have seen several times when we 
have locked in to try to create change and we have often been 
moderately successful over a long period of time. Everybody at 
this table just lived through a year of fundamental change in 
the Middle East in which we played a very small role. So I 
think just in terms of the forces at work, we have to be modest 
about our ability to understand them, to steer them, and 
perhaps what we have to do is to find opportunities to work 
with them because we cannot generate them on our own.
    Senator Lugar. Yes, sir?
    Dr. Jouejati. We have to be cautious and moderate, but 
every day of moderation and caution costs hundreds of lives. 
The Syrian people seek freedom, something that we stand for.
    Assad must go because he is a mass murderer. There is a 
difference, of course, between Egypt, Tunisia, and Syria in 
that in Egypt and Tunisia historically the army has been at 
least semiautonomous. In the case of Syria, the army is an 
instrument of regime power and that is because the ranking 
officers, whether in the Syrian army or in the Syrian 
intelligence services, are family and cronies and so on. When 
Assad goes--and he will go--this top layer will go with him, so 
that this powerful Syrian Army will be no more powerful. And we 
are seeing this by the defections of hundreds of soldiers on a 
weekly basis. The army will collapse.
    Really there is no room to sit and negotiate with Assad for 
a transition toward democracy because the mind set in Damascus 
is not there. The mind set is that of security. And we see this 
very evidently through the cosmetic reforms that Assad has 
tried to put in place, whether it is a new constitution that 
takes, albeit, one article away, the dominance of the Baath, 
but gives all the authority to the President. Or in his party 
law in which the establishment of political parties is 
contingent upon the approval of his minister of the interior. 
So the mind set is that of security, and you cannot negotiate 
towards a transition to democracy with a mindset like this.
    Syrians want freedom. They want democracy. And they have 
been ruled for the past 48 years with an authoritarian fist, 
single party, and for 41 years with family rule. Syrians, after 
independence, did taste freedom. They know what it is and they 
want to go back to the days of democracy. God knows we at the 
Syrian National Council are experiencing how democracy is 
messy, but that is good and we want it.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    Dr. Wittes, I look at the Russians. I see that they are 
supporting the Annan cease-fire and the U.N. observer mission, 
but then I see the Russian Foreign Minister say that the 
Friends of Syria as a group should have no say in the 
evaluation of the process. I believe that to some degree the 
Russians are still supplying the Assad regime with arms.
    So the question for me--I heard your comment about we have 
to bring Russia into the fold. They have to have a relationship 
or some type of position with Syria but not with Assad. What is 
the end game for them from your perspective? And how is it that 
we get their support? How do you bring them into the fold to do 
what we want to do which is to see the slaughter stop and at 
the same time get their support in a way that can help us do 
that since they are one of probably only two countries left 
that are really significantly supporting Assad at this point?
    Dr. Wittes. Thank you, Senator. It is an excellent question 
and a challenging one.
    But when I think about Russian interests in Syria, I think 
there are a couple of key points. One is the naval base at 
Tartus, and I think they would look for some assurance that 
they would be able to maintain access as a base for their 
Mediterranean operations.
    More broadly, I think they want to know that it is not the 
intent of Western powers or of the other Arab States to shut 
Russia out diplomatically, economically of a future Syria, a 
Syria that is reintegrated into the Arab region. And I think it 
is partly through dialogue with us, partly through dialogue 
with the other Arab governments in the region, and partly 
through dialogue with the Syrian oppositionists that these 
assurances can be given.
    Dr. Alterman. Senator, one other component of this is that 
Russia and China, which have their own restive regions that are 
arguably in rebellion, and who have deep concern about regions 
that go into rebellion that displace sitting governments. One 
of the concerns they have is that if there is an independence 
movement that arises that is spontaneous, is able to bring the 
population together and throw off the existing government, that 
precedent is bad for Russia and it is bad for China. And one of 
the things that we will have to manage is the fact that while 
that may be very much our desired goal, it is very unlikely we 
will be able to get them to sign on to support that goal.
    What we can get them to sign onto is to avoid the Somali-
ization of Syria, the fact that Syria would be a base for 
terrorism that would spread out because Syria is connected to 
the Caucasus, which has its own problems with terrorism. The 
Russians certainly have interests that we can build on, but one 
of their interests is not creating the kind of open, democratic 
Syria that Murhaf described.
    Senator Menendez. Let me ask one other set of questions, 
and that is, I look at our arsenal of peaceful diplomacy tools 
and largely it is the use of our aid and our trade as an 
inducement to countries to react in a certain way. It is the 
movement of international opinion when in fact there are 
regimes or governments who are subjective to international 
opinion. Many are not obviously. Then the only other element of 
peaceful diplomacy tools seems to me is the denial of aid or 
trade, which we generally refer to as sanctions. And while I do 
not revert to sanctions automatically, in a limited arsenal of 
peaceful diplomacy tools, it is sometimes the most significant 
thing you can do.
    So I look at what we have seen so far at the impact 
sanctions on Syria, which has reportedly lost half of its 
assets which are valued at a bit over $20 billion by the World 
Bank in 2010 as a result of sanctions.
    This week, the French Foreign Minister called for 
additional sanctions to counter the authoritarian solidarity 
being provided to Assad's regime.
    Do you support that view of the French Foreign Minister? Do 
you think that tighter sanctions, particularly by non-Western 
states, could significantly tighten the noose and force Assad 
into relinquishing power? I think, Dr. Jouejati, you mentioned 
in your testimony some of the elements of sanctions.
    Also, as we are sanctioning Iran for a different set of 
purposes, obviously an economic squeeze on them continues to 
create less and less likelihood that they can help the Syrians 
at the end of the day.
    So give me a sense of what more either we or our leadership 
in the world could seek to get other countries to do that would 
be meaningful in moving to our ultimate goal here.
    Dr. Jouejati. Tightening sanctions would be a good thing 
and especially when it is done in concert with other nations so 
that there are no loopholes. Targeted sanctions are very good. 
The bad news is that by doing these targeted sanctions, this 
layer of people that have been targeted now will want to 
resist, will not want to defect anymore, therefore increasing 
the cohesion of the layers at the top.
    But those who are really feeling it now are the people and 
the regime is justifying this by saying that the United States 
is the enemy. ``It is the United States that is impoverishing 
you. And anyway, we in Syria, according to the regime, who have 
been in the axis of resistance for a long time and have been 
paying for our principal foreign policy--we are used to 
sanctions. And so let the U.S. and let Western powers impose 
sanctions. That is fine with us.'' Again, the Assad family does 
not feel it. It is the people.
    Sanctions alone will not work, and there really needs to be 
a diplomacy, but a diplomacy backed with teeth.
    Senator Menendez. Do you think that if we had not had the 
sanctions, that those elements would have ultimately defected?
    Dr. Jouejati. Well, I am very happy for the targeted 
sanctions against Bashar al-Assad and his wife and mother and 
so on. Some of the generals, however--and again, they need to 
be punished because they have blood on their hands. But I think 
this made a difference for them between defecting and not 
defecting. Those who have not had sanctions imposed on them I 
think are now in that area and considering if they can defect 
if this does not hurt their families.
    Dr. Alterman. Sir, if I may. One of the problems we have 
sanctioning Syria is that we have been sanctioning Syria for so 
long, there is not much left for us to sanction. One of the 
things that we have done is we have made it illegal for Syrian 
Arab Airlines to land in the United States. They do not have a 
plane that can make it across the ocean. So we are getting to 
that sort of level of sanctions.
    So I think the important component of sanctions is not just 
to punish but also to hold out the promise that the pain can 
end when the policy ends. And I think one of the things that we 
have had a problem with is it easier to put on sanctions than 
take them off. But clearly for a lot of people, what we have to 
do is say this: ``Yes, this is going to hurt, and we know it is 
going to hurt. But when this situation changes, it will stop 
hurting.'' That is an inducement to change not an inducement to 
have the regime control the economy even more, which is one of 
the short-term effects of sanctions. But it can provoke a split 
in the leadership that could be very, very helpful.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, for having this 
hearing and the witnesses for being here.
    Dr. Wittes, I appreciated your comment about stability is 
in our national interest in Syria. And that is counter to 
saying regime change. I mean, that is a very different thing. I 
just would like to ask all three of you for a brief response, 
not long. I have some other questions. But is it in our 
national interest that we have stability or is it in our 
national interest that we have regime change?
    Dr. Wittes. Senator, my argument would be that until there 
is a change at the top in Syria, there will not be stability.
    Dr. Alterman. Sir, I think our interest is in stability and 
there are lots of ways to get there, but we are not on the 
course to there right now.
    Dr. Jouejati. The Assad regime thrives on instability, and 
if it were to collapse, then there could be a real chance for 
stability.
    Senator Corker. Well, I appreciate that.
    As I listen in the hallways and talk with other Senators 
and as we attend briefings together, you get a sense of sort of 
the tea leaves and what people are beginning to think. I know 
the administration is looking at a plan B. But one of the 
things that seems to be in conversation--this is not 
necessarily my point of view at all, but I think people are 
beginning to say, well, there are a couple things that need to 
happen.
    No. 1, there needs to be these zones or a zone, whether it 
is in Turkey or whether it is inside of Syria, where at least 
the opposition groups can train and have a place to organize.
    The other piece is that we should be arming the opposition 
groups because over time people are beginning to say, well, you 
know, Syria is going to collapse because of sanctions, because 
of other things, and what we need to do is give these 
opposition groups time. Obviously, they are outmanned. Syria 
has a 330,000-person army and the opposition group is small. 
But that seems to be the drift. That is what I think the center 
focus is becoming, at least in the United States Senate.
    I would love for you all to respond to that. Obviously, the 
diplomatic efforts would continue, but I think the arming of 
the rebels is now becoming something that is more mainstream in 
thinking, and I would love to have your response to that.
    Dr. Alterman. Senator I think that the challenge of 
creating these safe zones is they have to genuinely be safe, 
and that is not a small achievement. It could mean either a 
significant military commitment by the United States and a 
whole series of allies, or the possibility the Syrian army 
would shell the zones creating a humanitarian disaster. I think 
it is an option that, if we consider it, is essentially 
amounting to war, because we are putting troops on somebody 
else's sovereign territory. We should do that with eyes open, 
not saying it is just a sort of temporary measure.
    My concern about arming the groups is that as I think back 
to examples of armed opposition groups, it generally takes a 
decade, and they do not always win. I remember the Mujahideen 
in Afghanistan. I remember the Contras in Nicaragua. There have 
been examples of our efforts to create these armed groups, and 
I cannot think of a lot of examples where they have been 
successful in 6 months, 9 months. My recollection is that they 
often take a very long time and are not always successful.
    I think where this regime is vulnerable is precisely what 
we learned from Egypt and Tunisia. When the institutions at the 
top of the regime feel that all of their legitimacy is being 
compromised because hundreds of thousands of people are in the 
streets, that is when the regime shakes because the 
institutions break apart. I think we have to be looking for 
that kind of split. That is the faster split. That is the 
cleaner split. I think that is the split that leads to a better 
outcome for Syria. I worry that the context may change before 
Syria changes. I do not know what the situation is going to be 
with terrorism in the Middle East over the next 5 to 10 years. 
I do not know what anything is going to be in the Middle East 
for the next 5 to 10 years. And if we are investing in a 10-
year process of military-led change in Syria, the whole context 
could change dramatically in the next 2 years, and I do not 
know where that leaves us, and I certainly do not know where it 
leaves Syria.
    Senator Corker. Dr. Wittes.
    Dr. Wittes. Thank you, Senator.
    I guess two things. On the issue of safe zones or 
humanitarian corridors, I think it is important for us to have 
firmly in mind what is our goal in doing this. Is our goal to 
provide an arena in which armed opposition can organize and 
train? Is our goal to provide humanitarian relief and a way in 
which refugees can get out of endangered zones? Is our goal to 
ensure the security of Syria's neighbors in the course of the 
spiraling instability of this conflict?
    And I would argue that the third is probably the most 
important function for any moves along these border areas. If 
nothing else, we must contain the impact of this conflict on 
the region. We must contain the possibility for ripple effects. 
And that means that I think we want Turkey, we want Iraq, we 
want the other neighbors to lead here. What is most important 
to them? What are they willing to have on their territory and 
what are they willing to do in order to ensure the security of 
their own borders?
    Senator Corker. But they are not going to do that without 
us being involved. If we keep going down the path of the armed 
rebels base and just how that ends up--so for that to happen, 
our military is going to be involved in some form or fashion. 
Arming rebels obviously is the opposite of what Russia is now 
doing. They are arming Syria. So play that out, if you will. 
You know, where does that go? Because it would involve us 
having, I would think, some type of boots on the ground or 
something else happening in that regard in direct conflict to 
another P5 member.
    Dr. Wittes. Senator, first of all, I do not think that 
direct American involvement, certainly not in the form of boots 
on the ground, is necessary. I think in the other cases that 
Dr. Alterman mentioned, we did not have military boots on the 
ground as we were arming these insurgencies.
    What I would say, though, is that insurgencies very rarely 
succeed in overthrowing governments. The goal here would not be 
to arm oppositionists so that they can overthrow the regime. 
The goal would be to help these oppositionists use military 
pressure to fracture the regime. And so it is less a question 
of----
    The other point I think it is important to make is that 
they are getting weapons. They will get weapons. If we do not 
organize the means by which they get means to use force and the 
ways in which they use it, others will do that, and they will 
not necessarily do it in a way that is going to be helpful to 
stabilizing the situation or achieving the goals we seek.
    Senator Corker. So you would, though, support arming the 
opposition groups, Americans, the U.S. Government being 
involved in arming the opposition groups.
    Dr. Wittes. I think we need to be dealing with those who 
are already very interested in doing that and maybe even 
already doing it and trying to corral their efforts.
    The Chairman. Thank you, Senator Corker.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to follow up on Dr. Wittes' point.
    But let me thank you for these hearings. We have had a 
series of hearings on Syria, and I have found them all 
extremely helpful, including the panel we have here today.
    There is, I think, a growing understanding of the dilemma 
that we face. We need to see a regime change in Syria. I think 
that is not just the assessment of the United States, but the 
international assessment.
    And, Dr. Alterman, you make an observation which I share. 
Having met Assad, I agree that the likelihood of President 
Assad stepping aside voluntarily is rather remote. That is 
probably the least likely way that we would get a regime 
change.
    We could get a regime change by the opposition becoming so 
strong that it overthrows the Government. We have been talking 
about that now for several months, and there is no indication 
that that could happen anytime soon for many reasons, a lot of 
which we have talked about before.
    So it seems to me the most likely scenario for a regime 
change in the shortest amount of time is that there is a 
fracturing of the regime, as Dr. Wittes points out, where there 
is an acknowledgment among the rulers that we better cut our 
losses and do the best we can and Assad has got to go. I mean, 
I think that is the most likely scenario in the short term.
    What worries me, Dr. Alterman, by your observation is that 
we have to pace ourselves. I think that is the term you used. 
To me that sounds like a frozen conflict, and that is not good 
for the United States. That is not good for the international 
community. Misery will continue. People will be killed. And we 
have not even talked about the displaced people, the tens of 
thousands that are no longer living in their homes, some of 
which are in surrounding countries causing a problem within the 
surrounding countries.
    We have talked about that a frozen conflict helps Iran. 
They become more relevant, and they very much would welcome the 
instability in Syria.
    And of course, it promotes fear and instability in the 
region, all of which are against U.S. interests.
    So a frozen conflict is not in our interest. We need to get 
things moving, which brings me to how do you bring about a 
change as quickly as possible. And I think, Dr. Wittes, you 
pointed it out. The stronger the opposition becomes, the more 
likely the Government will recognize that they have a serious 
problem that has to be dealt with and the more likely it is 
that they will get rid of President Assad. I think that is what 
we are all saying.
    Now, the challenge here--and I think that Senator Corker 
pointed this out--is that as long as the level of opposition is 
manageable, President Assad can likely maintain his control in 
the country. But as the level gets to a point that really 
challenges the ability of Assad to keep control, we will, I 
think, reach that tipping point where we have the best possible 
chance for a regime change.
    So it comes back to the point we have all been sort of 
tiptoeing around. It seems like the United States has been very 
timid in its helping of the opposition. Now, we all understand 
we do not want to get involved in a military conflict. We know 
that. We are not talking about boots on the ground. But there 
are a lot of options short of that that the United States could 
take a stronger leadership position in order to facilitate the 
opposition, making it more likely we can get to a regime change 
sooner rather than later.
    And I think that is the point, Mr. Chairman, that we have 
been all sort of talking about and how can we do that. We know 
we have heard a lot of reports about the opposition, how they 
are fractionalized. They have their own little niche. They need 
to work together. They need to be trained. They need to be able 
to communicate. They need to be able to do this in a safe 
environment. And I understand the challenges of maintaining 
territorial integrity for them to train, but there are other 
issues that also could be done.
    So I guess I am just putting out what I think is the 
observations here and ask the panelists are there specific 
areas where the United States could exercise stronger 
leadership that could embolden the opposition to facilitate a 
regime change in Syria. Specific areas.
    Dr. Jouejati. If I may, Senator. Thank you very much for 
this. Yes. It is not only that the stronger the opposition, the 
weaker the regime, but I think we should be making the regime 
increasingly irrelevant and that is by these safe zones and 
safe corridors. Now, remember, there are neighborhoods in 
cities like Homs who have not received medicine in over a month 
and no electricity and no water. If we are able to make safe 
corridors to funnel to them humanitarian relief, then the Assad 
regime in this area of Syria would become irrelevant and 
therefore weak.
    With regard to arming the opposition, let us not forget 
this started as a peaceful revolution and the Free Syrian Army 
emerged only as a result of defected soldiers who would not 
accept to shoot at their fellow citizens. Now the opposition is 
armed. Do we leave them twisting in the wind with a huge 
imbalance of power? And as you mentioned, Senator, Russia is 
arming the Syrians, so is Iran, even the Mahdi Army making a 
presence in Syria, Hezbollah.
    I am a man of peace and I wanted this to be a peaceful 
revolution, but then imagine the perception on the Syrian 
street of the United States not helping those who are trying to 
fight for their freedom. Yesterday, literally yesterday, I had 
a phone call with folks on the ground in Syria, and they asked 
me if the United States is in cahoots with the Assad regime.
    And so these safe zones and safe corridors I think could 
make the Assad regime irrelevant in those areas. And again, 
engaging with the opposition, whether the Free Syrian Army or 
the Syrian National Council, would be a good thing. Let us not 
forget the Syrian National Council is the product of--it was 
established only in October, and it is remarkable that the 
Syrian National Council has crossed the distance that it has 
knowing that the Syrians have not been able to do politics for 
the past 50 years.
    Senator Cardin. Dr. Alterman.
    Dr. Alterman. Senator, I am cautious about our ability to 
be more patriotic than Syrians themselves, and I think that the 
more we visibly support opposition groups, we run the danger of 
delegitimizing these opposition groups. The fact is there is a 
diversity of views in Syria about the regime. There is a 
diversity of views in Syria about the opposition. A lot of the 
trading families in Damascus and Aleppo, a lot of the urban 
middle classes feel that if they go the route of regime change, 
it will be chaos and disaster. It will be everything they 
cannot stand. And from their perspective, if you respect the 
rules of Assad, which is you do not get involved in politics 
and you keep your head down, and if you make money and you pay 
off the right people, you are fine. Those people have not 
switched. When we are thinking about what our role should be, 
our role has to be to persuade those people who are currently 
in the camp of the Assad regime to switch over.
    The way we deal with the opposition should be careful not 
to do anything to make the opposition less attractive to those 
people. Instead, we need to be thinking about ways to make the 
opposition more attractive to those people, because I think 
when those people go, that will be the fulcrum of change in 
Syria.
    Dr. Wittes. I will just add very briefly I think Jon is 
exactly right on this point, and this is why I think it is so 
important that we support the opposition in developing clear 
visions for what a post-Assad Syria will look like. It is that 
vision that will help build bridges amongst these fractious 
groups. They may not be able to agree on ideology or on 
identity, but they can agree on some things about what Syria 
should look like. And it is that vision that will provide 
assurances to those constituencies inside Syria that are right 
now sitting on the fence, whether it is the commercial elite, 
ethnic minorities, or others.
    The Chairman. So what will persuade them, Jon, if I can 
just intersperse with the Senator. What would persuade them? 
You say we've got to persuade them. What is going to do it?
    Dr. Alterman. Partly it is this sense of holding out a 
vision for what post-Assad Syria looks like. Partly it has to 
do----
    The Chairman. Supposing you hold out the best vision in the 
world and Assad continues to kill people and holds the dominant 
power.
    Dr. Alterman. As I say, I think that our goal needs to be 
to present Syrians with a choice, that there is a choice that 
is painful, economically painful, to many people, or there is a 
choice which is less painful. And I think that that means we 
have to send clear signals about the kinds of people we would 
be willing to work with and the kinds of people we would not be 
willing to work with. The precedent we set in Iraq with de-
Baathification I think is a precedent that many people in Syria 
look at.
    The Chairman. How does it matter who we are willing to work 
with or not work with if Assad is in a position just to sit 
there?
    Senator Cardin. That is right.
    Dr. Alterman. As I say, I think we have to pressure Assad, 
but what we also have to do is send signals to people that we 
would not repeat the experience we had with de-Baathification 
in Iraq where anybody who was a member of the Baath Party was 
pushed out because there are many people who are close to the 
regime. What we precisely want is for them to think that they 
have----
    The Chairman. So basically what you are banking on is just 
an internal upheaval. You are banking on a coup.
    Dr. Alterman. Yes.
    The Chairman. That is it.
    Dr. Alterman. Well, it is not it. And I think there are 
probably things we----
    The Chairman. What else are you banking on if you are not 
banking on that? What else is going to happen if all you do is 
hold a vision out there and say do this? If there is not a 
coup, nothing happens.
    Dr. Alterman. Or some sort of transition that comes after 
massive demonstrations in the street.
    The Chairman. Well, OK, massive demonstrations.
    How are they going to have massive demonstrations after all 
of this which has gone on? They cannot have a massive 
demonstration now. And if Assad is in a stronger position 
because the only thing held out there is a vision, it seems to 
me he is going to say, boy, I got the best of this deal. Let us 
go out and kill them.
    Senator Cardin. And Mr. Chairman, I think we are heading 
towards a frozen conflict which is the worst of all scenarios 
with Assad staying in power unless we try to change the 
equation.
    The Chairman. Anyway, I do not want to go around and 
around.
    Senator Udall.
    Senator Udall. Thank you, Senator Kerry, and thank you for 
holding this hearing. Very, very important and timely and thank 
you to the panelists.
    Sorry to be a little late. I had to bring the Senate in 
this morning and stay over there and preside up until 11:00.
    Let me ask about the situation with the unarmed observers. 
Are they really capable of keeping the peace? And should the 
United Nations be considering armed peacekeepers as part of a 
cease-fire agreement? And would such a plan be feasible given 
the likelihood that China and Russia may oppose such a plan? 
Please, any of the panelists on that.
    Dr. Wittes. Thank you, Senator.
    The effectiveness of a cease-fire is entirely dependent on 
the will of Bashar al-Assad to comply with it. So far, that has 
proven to be extremely limited. So I think the hope among those 
who supported the Annan plan was that a cease-fire would allow 
the resurgence of peaceful protests and generate the kind of 
pressure that Dr. Alterman has been talking about. That 
appeared to be a bit in play on Friday when there were many 
large demonstrations across Syria, but the escalating violence 
since then I think has proven the limits of that strategy. And 
the more time we spend arguing with Assad over what the rules 
will be for the monitors, how many monitors, where they are 
allowed to go, how they will be protected, and so on, the more 
opportunity he has to persuade those around him that he is 
there for good and they just need to accommodate themselves to 
that fact. So I think if what we are looking to do is fracture 
the pillars of the regime, banking on a cease-fire and monitors 
is going to send us in the wrong direction.
    Dr. Jouejati. Monitors are good only in the sense that they 
expose the Assad regime. Assad cannot allow peaceful 
demonstrations. He will shoot at them. He knows of no other 
way. And so it is good to have monitors there. Yesterday is a 
case in point as there was a peaceful demonstration in Arbine. 
The demonstrators were shot at in full view of the six monitors 
that are in Syria, by the way. There are an expected other 30 
monitors. That is less monitors in a state in which there is 
war than in a soccer match; FIFA sends usually more monitors 
than this.
    At any rate, it is a good thing to have monitors again to 
expose the Assad regime. It is not only in terms of pulling 
back heavy armor. We want to see international journalists with 
unfettered access in Syria. We want to see international 
humanitarian relief, and we want to see civilian demonstrators 
peacefully demonstrating without being shot at. And it is only 
monitors on the ground that would be able to support such a 
thing.
    Caveat: The Assad regime wants to be in charge of the 
movement of these monitors, wants to be with them, and even 
wants to impose the nationality of these monitors. Now, the 
Syrian Government, for example, is very happy that some of the 
monitors are Russian and Chinese because, according to the 
Foreign Minister of Syria yesterday, ``these are from neutral 
countries.''
    Dr. Alterman. I very much agree the point of monitors is to 
expose the illegitimacy of the actions of the Government. I 
think it is very unlikely that monitors are going to actually 
be able to prevent something, but it can bring countries in 
because they feel they have a stake because their monitors are 
there and are put in danger because of the actions of the 
Government. That helps build this international coalition to 
build escalating pressure. It helps keep the Arab League 
pressuring Bashar al-Assad.
    Certainly one of the things I worry about--it sounds like 
there are several people who feel it could not get worse. I 
think it could get worse. One of the ways it could get worse is 
if Assad is successful in negotiating a way back into the Arab 
fold, a way back into mending his relations with Turkey. I do 
not think any of that is going to happen now, but it may be his 
2- to 3-year plan, and I think that puts us in a much more 
difficult situation. It leaves him much more entrenched in 
Syria, one of the things we should work to prevent.
    Senator Udall. Now, with the United Nations seeing what is 
going on--if they, as part of this cease-fire, would begin 
considering sending armed peacekeepers in, does that change the 
equation at all? Is it a certainty that both Russia and China 
oppose something like that?
    Dr. Jouejati. I think armed or unarmed, the Assad regime 
will continue to try, as best as is possible, to manipulate 
these monitors because this is the only game it is used to.
    Dr. Alterman. To my mind, the way to leverage the Russians 
and the Chinese is to persuade them that the route we are on is 
a route that leads to chaos, which they do not want and which 
we agree with them that we do not want. I do not think we are 
quite at that point now, and my guess would be that both Russia 
and China would oppose armed monitors. I do not think they feel 
we are at the point of crisis yet, but that point may be coming 
soon and we should be alert to opportunities to work with them 
on that.
    Senator Udall. Thank you very much.
    Thank you, Chairman Kerry.
    The Chairman. Thank you very much.
    Senator Lugar, do you have more questions?
    Senator Lugar. No.
    The Chairman. Folks, this has been helpful in, obviously, 
clarifying what is unclarifiable. There are some unknowns here, 
needless to say, and that complicates this. But I think it has 
been good to vet how there are some very specific things that 
need to be pinned down more carefully in the near term, and I 
think that is part of the reason for the meeting with the 
National Council. That is part of the reason for people now 
looking very carefully at what the options are, kinetic and 
otherwise, because if anything is certain, we have to act in a 
way that does address our interests. And I think everybody 
accepts that stability is key and there may be differences as 
to what will bring stability.
    But I think there are things we can do. I think there is 
more there than meets the eye. I think that there are ways to 
bring significant pressures to bear and change people's 
calculations. And I think that is the key thing to kind of work 
through now very, very carefully. I do not think any of you 
agree that we should sit there and do nothing or that there 
should be a status quo, and that is an important message in and 
of itself. Secretary Clinton is meeting I think right now in 
Paris, as I mentioned earlier. I think we need to see what the 
results of those discussions are and other discussions.
    I was in Qatar recently. I met with the Emir, the Prime 
Minister, and they were very clear about what they are willing 
to do. I have talked to the Foreign Ministers of both Jordan 
and Turkey. They are very concerned and are prepared to do 
things. People are prepared to put both money and forces into a 
place of opposition to this status quo.
    And it is also not unimportant at all that the Arab League 
has taken the steps that it has and that the GCC--they are 
leading. So nobody should think that this is the United States 
casting about for how do we something on our own. The Arab 
world is very concerned about this, and for the League to expel 
or suspend relations with a member is no small step, and for 
the GCC, likewise, to have expressed its concerns and need to 
do something. Now, obviously, there is a lot of geopolitics 
involved in all of those steps, but they are not 
inconsequential.
    So what is important is we are beginning to really give 
this the light of day that it needs. There is a lot of thinking 
going on, and we need to try to pull those thoughts together as 
rapidly as possible.
    So we thank you very much for sharing.
    We are going to leave the record open for a week. 
Colleagues may want to submit some questions in writing and 
complete the record here.
    And we are very grateful to all of you. Thanks for coming. 
Dr. Alterman, thanks for coming back. Glad to have you on the 
other side of the table. I think you have a lot wisdom in a lot 
of things you said here today about past experiences and 
cautions about what our expectations ought to be. And we need 
to measure all of that together with Dr. Jouejati's and Ms. 
Wittes' clear sense of what will make a difference and what 
will not. So that is our task. Thank you very much.
    And we stand adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
